<html>
<title> - INCREASING EFFECTIVENESS OF MILITARY OPERATIONS</title>
<body><pre>[Senate Hearing 114-540]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-540

            INCREASING EFFECTIVENESS OF MILITARY OPERATIONS

=======================================================================

                                HEARING

                               BEFORE THE
                               
                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 10, 2015

                               __________

         Printed for the use of the Committee on Armed Services
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


        Available via the World Wide Web: http://www.fdsys.gov/
        
                              ____________
                              
                              
                     U.S. GOVERNMENT PUBLISHING OFFICE
23-575 PDF                   WASHINGTON : 2017                     

__________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b8dfc8d7f8dbcdcbccd0ddd4c896dbd7d596">[email&#160;protected]</a>  

  

                      COMMITTEE ON ARMED SERVICES

                     JOHN McCAIN, Arizona, Chairman

JAMES M. INHOFE, Oklahoma            JACK REED, Rhode Island
JEFF SESSIONS, Alabama               BILL NELSON, Florida
ROGER F. WICKER, Mississippi         CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          JOE MANCHIN III, West Virginia
DEB FISCHER, Nebraska                JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                 KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota            RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                     JOE DONNELLY, Indiana
THOM TILLIS, North Carolina          MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                 TIM KAINE, Virginia
MIKE LEE, Utah                       ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina       MARTIN HEINRICH, New Mexico
TED CRUZ, Texas

                   Christian D. Brose, Staff Director

               Elizabeth L. King, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                               __________

                           december 10, 2015

                                                                   Page

Increasing Effectiveness of Military Operations..................     1

Schwartz, General Norton A., USAF, Retired, President and CEO, 
  Business Executives for National Security, and Former Chief of 
  Staff of the Air Force.........................................     4
Stavridis, Admiral James G., USN, Retired, Dean of the Fletcher 
  School of Law and Diplomacy, Tufts University, and Former 
  Commander of U.S. European Command and U.S. Southern Command...     8
Lamb, Dr. Christopher J., Deputy Director of the Institute for 
  National Strategic Studies, National Defense University........    12

                                 (iii)

 
            INCREASING EFFECTIVENESS OF MILITARY OPERATIONS

                              ----------                              


                      THURSDAY, DECEMBER 10, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Wicker, Ayotte, 
Fischer, Cotton, Ernst, Sullivan, Reed, Nelson, McCaskill, 
Manchin, Shaheen, Gillibrand, Donnelly, Kaine, and King.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Well, good morning.
    The committee meets today to continue our series of 
hearings on defense reform. We have reviewed the effects of the 
Goldwater-Nichols reforms on our defense acquisition, 
management, and personnel system, and our past few hearings 
have considered what most view as the essence of Goldwater-
Nichols, the roles and responsibilities of the Secretary of 
Defense and the Chairman of the Joint Chiefs of Staff, the 
service secretaries, and service chiefs, and the combatant 
commanders.
    This morning, we seek to understand how Goldwater-Nichols 
has impacted the effectiveness of U.S. military operations and 
what reforms may be necessary.
    We are pleased to welcome our distinguished panel of 
witnesses who will offer insights from their many years of 
experience and distinguished service. General Norton Schwartz, 
former Chief of Staff of the Air Force and President and CEO 
[Chief Executive Officer] of Business Executives for National 
Security; Admiral James Stavridis, former Commander, U.S. 
European Command and U.S. Southern Command, and currently the 
Dean of the Fletcher School of Law and Diplomacy at Tufts 
University and frequent appearance on various liberal media 
outlets; Dr. Christopher Lamb, Deputy Director of the Institute 
for National Strategic Studies at the National Defense 
University.
    More than anything else, the Goldwater-Nichols Act was a 
result of escalating concern in the Congress and in the country 
about the effectiveness of U.S. military operations. The 
Vietnam War, the failure of the hostage rescue mission in Iran, 
and the flawed invasion of Grenada all pointed to deep systemic 
problems in our defense enterprise that needed to be addressed 
for the sake of both our warfighters and our national security.
    In particular, Goldwater-Nichols focused on ensuring the 
unity of command and improving the ability of our forces to 
operate jointly. As we have explored in previous hearings, many 
questions remain about the balance our military is striking 
between core military competitiveness, competencies, and joint 
experience. But as it relates to combat effectiveness, there is 
no doubt, as one former Chairman of the Joint Chiefs of Staff 
put it, no other nation can match our ability to combine forces 
on the battlefield and fight jointly.
    The subject of today's hearing relates directly to the many 
steps Goldwater-Nichols took to improve the unity of command. 
The law made unified commanders explicitly responsible to the 
President and the Secretary of Defense for the performance of 
missions and preparedness of their commands. It also removed 
the Joint Chiefs of Staff from the operational chain of command 
and prevented the services from moving forces in and out of 
regional commands without approval. Geographic combatant 
commanders were given the ability to issue authoritative 
direction on all aspects of operations, joint training and 
logistics, internal chains of command, and personnel within 
their assigned areas of responsibility. These steps were 
effective in establishing clear lines of command authority and 
responsibilities that translated to a more effective fighting 
force than we had in the 1980s.
    However, 30 years later, we have to take a hard look at 
this command structure in light of current threats and how our 
model of warfighting has evolved. The United States confronts 
the most diverse and complex array of crises since the end of 
World War II, from rising competitors like China, revanchist 
powers like Russia, the growing asymmetric capabilities of 
nations ranging from Iran to North Korea, the persistence of 
radical Islamic extremism, and the emergence of new domains of 
warfare such as space and cyberspace. These threats cut across 
our regional operational structures embodied by geographic 
combatant commands.
    So we must ask whether the current combatant command 
structure best enables us to succeed in the strategic 
environment of the 21st century. Should we consider alternative 
structures that are organized less around geography and 
transregional and functional missions.
    At the same time, as numerous witnesses have observed, 
while combatant commands were originally envisioned as the 
warfighting arm of the military, the Department of Defense, 
that function has largely migrated to joint task forces, 
especially on an ad hoc basis in response to emerging 
contingencies. This suggests that people have identified a 
shortcoming in the current design and have adopted measures to 
work around the system as we see quite often. This should 
inform our efforts to reevaluate and re-imagine the combatant 
commands.
    At the same time, combatant commands have come to play very 
important peacetime diplomatic functions. Do these developments 
argue for changes in the structure of combatant commands? At a 
minimum, it would call into question the top-heavy and bloated 
staff structures that we see in the combatant commands. Time 
and again during these hearings, we have heard how dramatic 
increases in civilian and military staffs have persisted even 
as resources available for warfighting functions are 
increasingly strained.
    As former Under Secretary of Defense for Policy Michele 
Flournoy pointed out earlier this week, combatant command 
staffs have grown to 38,000 people. That is nearly three 
divisions? worth of staff in just the combatant commands alone. 
We have to ask if this is truly necessary and whether it is 
improving our warfighting capabilities.
    At the same time, we have to examine whether there are 
duplicative functions in the Joint Staff, combatant commands, 
and subordinate commands that can be streamlined. That includes 
the question of whether we really need all of the current 
combatant commands. For example, do we really need a NORTHCOM 
[Northern Command] and a SOUTHCOM [Southern Command]? Do we 
really need a separate AFRICOM [Africa Command] headquartered 
in Germany when the vast majority of its forces reside within 
EUCOM [European Command]?
    As we have to revisit the role of the Chairman and the 
members of the Joint Chiefs of Staff, Goldwater-Nichols 
strengthened the Joint Staff and operational commanders at the 
expense of the services. Has that gone too far or not far 
enough? Former Secretary of Defense Robert Gates raised this 
issue when he testified before this committee because of his 
frustration with the military services? lack of responsiveness 
to current operational requirements.
    Many of our witnesses have discussed whether the Chairman 
of the Joint Chiefs of Staff has sufficient statutory authority 
to perform the strategic integration that the Department of 
Defense all too often seems to do poorly, integrating 
priorities, efforts, and resources across regions, across 
domains of military activity, and across time, balancing short-
term and long-term requirements. The question has been raised 
whether the Chairman should be placed in the chain of command 
with the service chiefs and combatant commanders reporting to 
him. We have heard testimony in favor and against. I look 
forward to exploring this further today.
    These are critical questions about our defense organization 
that have direct bearing on the effectiveness of U.S. military 
operations and, as a consequence, on the wellbeing of our 
warfighters. We owe it to them to look at this seriously, ask 
the tough questions, challenge old assumptions, and embrace new 
solutions if and when it is needed.
    I thank our witnesses again and look forward to their 
testimony.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman. Let 
me join you in welcoming the witnesses. I have had the 
privilege really of working with General Schwartz as Chief of 
Staff of the Air Force, Admiral Stavridis as EUCOM Commander, 
and Dr. Lamb, your service in the Defense Department, now as an 
analyst and academic. I deeply appreciate it. Thank you very 
much, gentlemen, for joining us today.
    As the chairman has said, we have undertaken a very 
rigorous, under his direction, review of Goldwater-Nichols. And 
we heard just a few days ago from former Under Secretary of 
Defense Michele Flournoy about one of the issues, and that was 
in her words,``over the years, the QDR [Quadrennial Defense 
Review] has become a routinized, bottom-up staff exercise that 
includes hundreds of participants and consumes many thousands 
of man-hours rather than a top-down leadership exercise that 
sets clear priorities, makes hard choices and allocates risk.''
    So one of the things I would hope that the witnesses would 
talk about with this whole planning process, the formal 
process, the informal process, and how we can improve that--
that is just one of the items. There is a long and I think 
important list of topics that we could discuss: the role and 
authorities assigned to the Chairman of the Joint Chiefs of 
Staff, including whether the Chairman should be placed in the 
chain of for military operations; improving the employment and 
synchronization of military capabilities through possible 
structural reforms to our combatant commands, defense agencies, 
and field activities; and the potential benefits of adopting 
organizational changes, including consolidation of staff 
elements and creation of cross-functional teams, to achieve 
efficiencies and provide senior civilian and military leaders 
with more impactful and timely recommendations.
    And finally, in previous hearings, several of our witnesses 
have rightly observed that enhancing the effectiveness of our 
military operations and better capitalizing upon the gains 
achieved through those improvements may require significant 
changes to our interagency national security structure and 
processes as well. And this point was made by Jim Locher, who 
was the godfather, if you will, of the Goldwater-Nichols. In 
his words, ``No matter how well you transform the Department of 
Defense, it is still going to be troubled by an interagency 
system that is quite broken and the problems that confront this 
Nation and national security require an interagency response. 
The days of the Department of Defense being able to execute a 
national security mission by itself are long gone, and we do 
not have the ability to integrate the expertise and capacity of 
all of the government agencies that are necessary.'' I think it 
is important to keep that in mind.
    And chairman--again, let me commend him for beginning this 
process with this committee and the Department of Defense, and 
I hope it is a catalyst under his leadership for serious review 
by other committees and other agencies about how together we 
can improve the security of the United States.
    Thank you, Mr. Chairman.
    Chairman McCain. Thank you.
    Welcome, General Schwartz.

    STATEMENT OF GENERAL NORTON A. SCHWARTZ, USAF, RETIRED, 
 PRESIDENT AND CEO, BUSINESS EXECUTIVES FOR NATIONAL SECURITY, 
           AND FORMER CHIEF OF STAFF OF THE AIR FORCE

    General Schwartz. Thanks, Chairman McCain and Ranking 
Member Reed for your and the committee's commitment to 
improving DOD's internal governance and defense organization 
shaped by the Goldwater-Nichols reforms. It is an unexpected 
privilege to return to this hearing room and to offer a few 
related ideas on how to improve performance in the Department 
of Defense, and it is a special pleasure to sit beside the 
finest flag officer of my generation, Jim Stavridis.
    While there are many issues that warrant attention, command 
arrangements, resource allocation, acquisition processes, 
overhead reduction, joint credentialing of military personnel, 
and the potential for consolidation, among others, I wish to 
focus this morning on the three that I am persuaded hold the 
greatest promise for particularly positive outcomes. They are 
the role and authority of the Chairman of the Joint Chiefs of 
Staff, right-sizing the combatant commands, and establishing 
standing joint task forces for execution of COCOM [combatant 
commands] operational missions. I am certainly prepared to 
address the other matters you mentioned at your discretion.
    In my experience as a former member of the Joint Chiefs of 
Staff and the Joint Staff, a functional combatant commander, 
and a chief of service, I have come to the conclusion that the 
Chairman's informal role in supervising the combatant 
commanders and the JCS [Joint Chiefs of Staff] is insufficient 
for the demands of our times. While it is true that delegated 
authority from the Secretary of Defense is an alternative, 
there should be no doubt in the armed forces about the 
directive authority of the Chairman, subject to the close and 
continuing scrutiny and oversight of the Secretary of Defense.
    Strategic guidance for force employment, force allocation 
tradeoffs between combatant commands and establishing strategic 
priorities for the armed forces should not be the result of 
bureaucratic negotiation or the exquisite application of 
personal persuasion, but rather the product of strategic 
leadership. This capacity is constrained by the Chairman's 
inability to exercise executive authority on behalf of the 
Secretary of Defense, and the remedy I suggest is to place the 
Chairman in the line of supervision between the Secretary and 
his or her combatant commanders.
    The nine combatant commands are complex entities, none of 
which are alike, some with regional responsibilities and some 
with functional roles. The commands strive to serve both 
peacetime, crisis response, and warfighting obligations. The 
composition of the combatant command staffs clearly reflect the 
inherent tension in this excessively broad mission array: 
peacetime administration, deterrence, training, and partner 
engagement versus maintaining the capacity to conduct complex 
contingency operations in peace and war.
    The proliferation of resource directorates, J-8's; joint 
intelligence centers, J-2's; security assistance program 
offices, typically J-4's; partner engagement entities, 
typically J-9's; and operations and training staff, J-3's, is 
the result of this expansive assigned mission set. And over 
time, the warfighting role of the combatant commands has 
evolved to the almost exclusive use, some would suggest 
excessive use, of joint task forces up to and including four-
star-led joint task forces to execute assigned missions. The 
simple question in my mind is, can the combatant command, no 
matter how well tailored, perform each and every associated 
task with equal competence? I do not think so and the attempt 
to infuse greater interagency heft into the combatant commands 
has, in my experience, detracted from the core operational 
focus in either peacetime or in conflict.
    How have we squared the tension between combatant commands? 
peacetime and wartime roles? I would argue by again extensive 
use of joint task force organizations to execute operational 
missions. It is my conviction that the efficacy of the task 
force employment model is beyond dispute. The National 
Counterterrorism Joint Task Force demonstrates conclusively in 
my mind the enduring value of standing, mature, well-trained, 
and equipped joint task forces. It may well be that high 
performance parallels exist for national joint task forces in 
the surface, maritime, and air domains as well. What we should 
continue, however--or what, I should say, we should discontinue 
is the proliferation of joint task forces in each combatant 
command with the attendant service components and headquarters 
staffs. Task Force 510 in the Pacific Command might qualify, 
however, as an exception to the rule.
    In short, Mr. Chairman, we need to have within the armed 
forces a strategic leader who can exercise executive authority. 
We need to aggressively tailor combatant command headquarters 
composition to its core mission or missions and refrain from 
creating subordinate joint task forces out of service 
headquarters. And finally, we need to drive toward employment 
of long-term, highly proficient national joint task forces for 
combatant command employment.
    Thank you, Chairman McCain, Ranking Member Reed, and 
members of the committee for your attention this morning. I 
trust my presentation will assist in advancing the noble cause 
of Goldwater-Nichols reform. Thank you, sir.
    [The prepared statement of General Schwartz follows:]

          Statement by General Norton A. Schwartz, USAF (Ret.)
    Chairman McCain, Ranking Member Reed, Members of the Committee, 
thank you for your commitment to improving internal governance and 
defense organization shaped by the Goldwater-Nichols reforms. My 
remarks are based on my experience in uniform as the 19th Chief of 
Staff of the United States Air Force and a former Commander of the US 
Transportation Command. It is an unexpected privilege to return to this 
hearing room and to offer a few related ideas on how best to improve 
performance in the Department of Defense.
    I now serve as the President and CEO of Business Executives for 
National Security, a non-partisan organization of business executives 
with genuine concern for national security. As part of your defense 
reform review I would be pleased to offer to you, at some future date, 
my organization's views on the pressing need to make more efficient use 
of defense resources and improve Defense Department management--also 
objectives of the original Goldwater-Nichols legislation.
    As requested, my remarks today are confined to the topic of 
increasing the effectiveness of military operations. The views are my 
own.
                        the rationale for reform
    First, let me commend the Senate and this Congress for restoring 
acquisition responsibilities to the Service Chiefs in this year's 
National Defense Authorization Act legislation. Not only does it put 
accountability where it belongs in the Service acquisition structure, 
it identifies the acquisition career field as central to respective 
service identities, which is important for promoting viable military 
career paths.
    The need to reconsider the roles of other senior military leaders 
in the structure of the Department stems, I believe, from two 
transformational factors that have evolved since implementation of 
Goldwater-Nichols. The first is the concept of jointness, which has 
been inculcated over a period of nearly thirty years into the daily 
cadence of military operations. I cannot foresee us ever going to war 
in the future with a concept of operations that is not joint. Because 
of this irreversible development, we should perhaps look at adapting 
the current joint duty requirements for officer promotion by 
emphasizing joint experience at the operational level of command 
instead.
    The second factor is related to the first and involves changing the 
way we identify and resolve conflict today as opposed to more 
traditional warfare designs of the past. The evolving threat is 
political, economic and demographic. In the Middle East the adversary 
is ideological, made up of proto-state, non-state, and sub-state 
entities. Think ISIS/ISIL, Hezbollah, Hamas. Internationally, China and 
Russia seek ascendancy. Across the developing world, nearly 40 percent 
of the population is under the age of 15 creating a huge demand on 
future resources and governing institutions. Climate change suggests 
complex consequences with security implications. Clearly, maintaining 
national security in this environment requires DoD to plan for a wide 
range of contingencies. The model we have adopted more often than not 
as the preferred military response is to task organize for the specific 
contingency.
    Goldwater-Nichols arose in an era of more sharply defined politico-
military circumstances. Those boundaries no longer exist. It is 
therefore appropriate and necessary to evaluate the need to adapt our 
military operational structure for the new threat environment.
    three suggestions for improving military operational performance
    While there are many issues that warrant attention: command 
arrangements, resource allocation, acquisition processes, overhead 
reduction, joint credentialing for military personnel and the potential 
for consolidation among others, I wish to focus on the three I am 
persuaded hold the greatest promise for particularly positive outcomes. 
They are: the role and authority of the Chairman of the Joint Chiefs of 
Staff, right-sizing the Combatant Commands (COCOMs), and establishing 
standing Joint Task Forces for execution of COCOM operational missions.

    1.  The Chairman of the Joint Chiefs of Staff in the operational 
chain of supervision
    In my experience as a former member of the Joint Chiefs of Staff 
and the Joint Staff, I have come to the conclusion that the Chairman's 
informal role in supervising the Combatant Commanders and the JCS is 
insufficient for the demands of our times. While it is true that 
delegated authority from the Secretary of Defense is an alternative and 
is routinely implied, there should be no doubt in the Armed Forces of 
the United States about the directive authority of the Chairman, 
subject to close and continuing scrutiny and oversight by the Secretary 
of Defense.
    Developing strategic guidance for force employment, deciding force 
allocation tradeoffs between Combatant Commands and establishing 
strategic priorities for the Armed Forces should not be the result of 
bureaucratic negotiation or the exquisite application of personal 
suasion but, rather, the product of strategic leadership. That capacity 
is constrained by the Chairman's inability to exercise executive 
authority on behalf of the Secretary of Defense. The remedy, I suggest, 
is to place the Chairman in the line of supervision between the 
Secretary and the Combatant Commanders.

2.  Right-sizing the Combatant Commanders for peacetime deterrence and 
engagement roles
    The nine Combatant Commands are complex entities, none alike, some 
with regional responsibilities and others with functional roles. The 
commands strive to serve both peacetime, crisis response and 
warfighting obligations. The composition of the Combatant Command 
staffs clearly reflects the inherent tension in this excessively broad 
mission array: peacetime administration, deterrence and partner 
engagement versus maintaining the capacity to conduct complex 
contingency operations in peace and war.
    The proliferation of organizational elements such as resource 
directorates (J-8s), Joint Intelligence Centers (J-2s), security 
assistance program offices (typically J-4s), partner engagement 
entities (typically J-9s) and operations and training staffs (J-3s) is 
the result of the expansive assigned mission set. What we see over time 
is that the warfighting role of the Combatant Commands has evolved to 
the almost exclusive use of subordinate Joint Task Forces (JTFs).up to 
and including four-star led JTFs.to execute assigned operational 
missions. Further, the infusion of greater Federal interagency heft 
into the Combatant Commands has, in my experience, detracted from core 
operational focus, in both crisis and conflict. This evolution in 
organizational complexity raises a simple question: can a Combatant 
Command, however well-tailored, perform each and every associated task 
with equal competence? I don't think so, and I believe it is necessary 
to refocus the Combatant Commanders on their core mission: strategic 
engagement, relationship building, joint training, combat support, and 
contingency planning; and, adjust their headquarters staffs 
accordingly.

3.  Standing Joint Task Force for land, maritime and air
    The proliferation of COCOM organizational elements that I have just 
described brings up a fundamental question of task and purpose. The 
COCOMs are supported by separate component commands in land, sea and 
air. Yet, their components role is largely administrative not 
operational. Instead, we have we squared the tension between Combatant 
Command peacetime and wartime roles by extensive (some would argue 
excessive) use of Joint Task Force organizations to execute operational 
missions. By and large this has been successful.
    It is my conviction that the efficacy of the Task Force employment 
model is beyond dispute. The National Counterterrorism Joint Task Force 
demonstrates conclusively, in my mind, the enduring value of standing, 
mature, well-trained and well-equipped Joint Task Forces. It may well 
be that high performance parallels exist for National Joint Task Forces 
in the surface, maritime and air domains as well. We need to consider 
creating highly efficient National Joint Task Forces for global 
employment when and where needed. What we should discontinue, however, 
is the proliferation of Joint Task Forces in each Combatant Command, 
with attendant service components and headquarters staffs (Task Force 
510 in the US Pacific Command, PACOM, might qualify as an exception to 
the rule).
                               conclusion
    A major purpose of Goldwater-Nichols was to strengthen the Joint 
Staff and the Combatant Commanders. Your comprehensive review needs to 
balance that objective with the Service's authorities to organize, 
train and equip. The roles are complementary: operations and support. 
However, we need to reinforce the chain of supervision and, in turn, 
accountability. You have done this with the reconstitution of the 
Service Chiefs' acquisition role. On the Joint Chiefs' side, we need to 
have within the armed forces a strategic leader who can exercise 
executive authority. We need to aggressively align Combatant Command 
headquarters composition to its core mission(s) and refrain from 
creating subordinate Joint Task Forces from Service headquarters. And, 
finally, we need to drive toward employment of long-term, highly 
proficient National Joint Task Forces for Combatant Command employment.
    Thank you for the opportunity to appear before the Committee today.

    Chairman McCain. Admiral Stavridis?

STATEMENT OF ADMIRAL JAMES G. STAVRIDIS, USN, RETIRED, DEAN OF 
THE FLETCHER SCHOOL OF LAW AND DIPLOMACY, TUFTS UNIVERSITY, AND 
  FORMER COMMANDER OF U.S. EUROPEAN COMMAND AND U.S. SOUTHERN 
                            COMMAND

    Admiral Stavridis. Chairman McCain, Ranking Member Reed, 
other distinguished members, a pleasure to be back with you and 
to be here with General Schwartz, who was not only a service 
chief but a combatant commander, as well as being Director of 
the Joint Staff. There is no one who can talk more coherently 
to these issues than him. And as well, my good friend, Dr. 
Chris Lamb, who I think an best address the questions of 
planning and strategy that Senator Reed raised a moment ago.
    I spent 37 years in uniform. I spent probably a decade of 
that in the Pentagon. I wish I had been at sea during those 
years, but in that time, I managed to serve on the staff of the 
Secretary of Defense, the Secretary of the Navy, the Chief of 
Naval Operations, and the Chairman of the Joint Chiefs of 
Staff. So I have sort of seen inside the building. And as 
Senator McCain mentioned, I was twice a combatant commander, 
once in Europe and once in Southern Command, Latin America and 
the Caribbean.
    So I am going to simply walk into four or five ideas that I 
think might be interesting for this committee to discuss and 
debate. None of these are fully firmed ideas, but I think they 
relate to the objective of what the committee I think very 
correctly seeks to do as we sit here kind of 3 decades after 
Goldwater-Nichols. And they all relate in one way or another to 
how the Department is organized.
    So I am going to start with one that I think is 
controversial but ought to be considered, and that is do we 
need a cyber force for the United States. I would invite you to 
think about where we were 100 years ago. We had an Army, a 
Navy, and a Marine Corps. Did we have an Air Force? Of course, 
not. We barely flew airplanes 100 years ago. I would argue 
today it feels like that moment a few years after the beach at 
Kitty Hawk, and my thought is clearly we need a Cyber Command, 
and I think we are moving in that direction. But I think it is 
time to think about whether we want to accelerate that process 
because our vulnerabilities in the cyber domain, in my view, 
are extraordinary, and we are ill-prepared for them. And 
therefore, some part of our response will have to be done by 
the Department of Defense, and the sooner we have not only a 
Cyber Command, but in my view a cyber force, small, capable, I 
think we would be well served. I think we should have that 
discussion.
    Secondly, to the question of the interagency and the power 
of how to bring those parts of the government together, I think 
an interesting organizational change to consider would be at 
each of the regional combatant commands to have a deputy who is 
a U.S. ambassador or perhaps some other senior diplomat. I 
think you would need to continue to have a military deputy in 
order to conduct military operations, but a great deal of what 
combatant commands do is diplomatic in nature. And I think 
having a senior representative from the interagency present 
would be salutary. This has been tried at SOUTHCOM, EUCOM, and 
AFRICOM at one time or another, and I think it would be an 
effective and interesting idea to consider as you look at the 
combatant commands.
    Thirdly--and the chairman mentioned this--in my view 
geographically we have too many combatant commands. We have six 
today. I think we should seriously consider merging NORTHCOM 
and SOUTHCOM and merging EUCOM and AFRICOM. I think there are 
obvious efficiencies in doing so. I think there are operational 
additional benefits that derive. And I think finally it is a 
way to begin reducing what has correctly been identified as the 
bloat in the operational combatant command staffs.
    Fourth, I would associate myself with General Schwartz and 
a number of others who have testified with the idea that we 
should consider an independent general staff and strengthening 
the role of the Chairman of the Joint Chiefs of Staff. Frankly, 
in practice, as a combatant commander I would very typically 
call the Chairman, check signals with the Chairman. I would not 
undertake a radical departure without talking to the Chairman. 
I think putting the Chairman in the chain of command, as 
General Schwartz has outlined and a number of other witnesses 
have mentioned, is efficient, sensible, and frankly codifies 
what is in effect today in many ways.
    In addition, I think that Chairman would be well served 
with what some have termed a general staff. This is the idea of 
taking mid-grade military officers of extraordinary promise and 
pulling them from their services and more or less permanently 
assigning them to this general staff. This model has been used 
in other points by other nations in history. I think it is a 
powerful way to create efficiencies and avoid duplication 
because by doing so, you can reduce a great deal of what 
happens in the combatant commands today. So in addition to 
strengthening the position of the Chairman, I think it would be 
worth considering whether a general staff model would make 
sense.
    Fifth and finally, I think that we talk a great deal, 
appropriately, about joint operations. It is important to 
remember that joint education is extraordinarily important in 
both ultimately the conduct of operations, the creation of 
strategy, the intellectual content of our services. So I would 
advocate considering whether we should integrate our joint 
educational institutions, probably by taking the National 
Defense University, putting it back to three-star rank, and 
giving that officer directive authority over the Nation's war 
colleges. This would also create a reservoir of intellectual 
capability, which I think could match up well with the idea of 
a general staff.
    All five of those ideas are controversial, but I think they 
should be part of the conversation that this committee is 
unpackaging, which is one that is deeply important for the 
Nation's security. Thank you.
    [The prepared statement of Admiral Stavridis follows:]

        Prepared Statement by Admiral James Stavridis, USN (Ret)
    Chairman McCain, Rank Member Reed, other distinguished Members of 
the Committee, thank you for asking me to come and discuss ideas for 
reform of the Department of Defense.
    In the course of my 37 years of active service after passing out of 
Annapolis in 1976, I served about half of my career in staff 
assignments in the Pentagon--on the staffs of the Secretary of Defense 
as his Senior Military Assistant; Chairman of the Joint Chiefs focused 
on the Unified Command Plan; Secretary of the Navy as his Executive 
Assistant and Special Assistant; and Chief of Naval Operations with 
focus on long range and strategic planning.
    I also served twice in command as a Combatant Commander at US 
Southern Command for three years; and as US European Commander for four 
years, concurrently with serving as Supreme Allied Commander at NATO.
    While I did not enjoy staff duty as much as being at sea (true I 
suspect for most military officers), I learned a great deal and formed 
some opinions that I am happy to share today based on my years of 
active duty.
    Additionally, since leaving active duty two years, I have served as 
the 12th Dean of The Fletcher School of Law and Diplomacy at Tufts 
University and as a Senior Fellow at Johns Hopkins Applied Physics 
Laboratory. In both capacities, I continue to study and comment on 
these issues.
    All of these remarks, however, are my personal opinions and do not 
represent the views of any other individual or organization.
    I would like to begin by pointing out that I believe that overall 
that the US Department of Defense is the best functioning entity in the 
US government, and that it does an enormous amount of good in the world 
today. And that the vast majority of civilians and military assigned to 
the Department on staff duty are dedicated, hard-working, and very 
focused on their jobs in professional and commendable ways.
    Having said that, I also believe it is time to take a look at 
several aspects of the way the Department does business, and the work 
of this committee is therefore timely and sensible. It is over three 
decades since Goldwater-Nichols reshaped much of the day-to-day conduct 
of DoD business, and its effects have been overwhelmingly good. But 
three decades is a long time, and it makes a great deal of sense to 
look at new ways to think about how this enormous, $600 billion per 
year enterprise is run.
    All the thoughts that I offer today should quite obviously be 
regarded merely as starting points for further discussion, as the 
issues are so significant and complex that they demand much study, 
collaboration, consideration of second order effects, and caution as we 
go forward.
    As 2016 rolls around, it will be thirty years since the Goldwater-
Nichols Act fundamentally reshaped the broad organization and 
specifically the chain of command of the military. It solidified the 
Joint requirements for education and promotion, created the position of 
Vice Chairman of the Joint Chiefs of Staff, and vested the power to 
conduct military operations solely in the Combatant Commanders, 
reporting directly to the Secretary of Defense and the President. After 
thirty largely successful years under Goldwater-Nichols, now is a good 
time to take a fundamental look at what we are doing in the massive 
Department of Defense and consider some new potential ideas.
    Here are five admittedly controversial ideas to think about:
    Create a Cyber Force. It is a foregone conclusion that we need a 
military Cyber Command, i.e. an independent, 4-star commander focused 
on cyber operations. The real question is: do we need a cyber force as 
well? If we look back a hundred years ago, we didn't have an Air 
Force--quite obviously because we didn't fly planes in any number. It 
took us over 50 years to figure out that we needed a separate branch of 
the military to focus on aviation.
    Today we cannot conceive of a world in which we would not have 
trained, capable Airmen ready to defend their nation in the skies. 
Seems high time we considered a separate service to do the same in the 
cyber world, a place where we are increasingly under attack and in 
which many other nations have already militarized. And while we are at 
it, we should likewise think about whether this model works for Special 
Operations as well--i.e. creating a fully formed separate Service to 
perform all elements of Special Operations.
    Give Each Regional Combatant Command a Civilian Deputy. As we look 
at a 21st century in which we need to exercise national security 
through not only the military instrument but also via diplomacy and 
development, having a senior civilian as a Deputy at each COCOM makes 
sense. The best choice would be a senior State Department official, 
preferably someone who had served as an Ambassador in the region for 
the Geographical Commanders. He or she should be detailed at the level 
of Minister-Counselor (1/2 star) with authority through the command.
    This has already been successfully implemented at SOUTHCOM, EUCOM, 
and AFRICOM; and standardizing it makes sense to increase the 
interagency reach of the COCOMS. We should also give each of the 
Combatant Command staff a capable J-9 staff element to do interagency 
coordination and a very small group J-10 to do private public 
cooperation.
    In terms of the Functional Combatant Commands, there may likewise 
be arguments for including a civilian deputy above the level of the 
current ``Politcal Advisors POLAD'' provided by State Department, 
although it is a less clear cut case. These commands should be examined 
on a case-by-case basis to see if this model is equally effective as it 
is for the Geographic Combatant Commanders.
    Reduce the number of Geographic Combatant Commands, rationalizing 
them to four in number. This should be done in parallel with reducing 
the overall size of the staffs, which are too large given that much of 
the operational activity of the Department is conducted by Joint Task 
Forces anyway.
    --Merge SOUTHCOM and NORTHCOM into a single Americas Command. The 
artificial division of Mexico from SOUTHCOM hurts our unified purpose 
throughout Latin America and the Caribbean; and our Canadian allies are 
very involved in the world to the south as well. Making this one 
command--probably headquartered in Miami, with a sub-unified command in 
Colorado Springs retaining NORAD and air defense--would be efficient, 
save resources, and improve focus on the Americas.
    --Merge EUCOM and AFRICOM, reconstructing the earlier model, now 
terming it Euro-Africa Command. The staffs remain collocated in Germany 
anyway, and there are savings to be had in terms of size much as is the 
case between the two commands focused on the Americas.
    Stand up a truly independent General Staff with Operational 
Authority, atop the military chain of command. In today's world, the 
officers assigned to the Joint Staff in the Pentagon essentially 
function in this role. The problem is that they know they will return 
to their parent services for promotion and advancement to the next rung 
on the career ladder.
    An independent General Staff would be manned by the brilliant few, 
selected from their service at the level of 0-4/0-5, and permanently 
assigned to the General Staff. Additionally, some number of 0-6 and 
Flag / General officers could likewise be laterally assigned after 
their Captain / Colonel and Flag command assignments. But the key would 
be that they would no longer return to their parent services once they 
were assigned to the General Staff--only to Joint commands and / or 
back to the Pentagon General Staff.
    It is also time to consider simply making the Chairman of the Joint 
Chiefs of Staff the senior operational commander, reporting directly to 
the Secretary of Defense. The Combatant Commanders should report to the 
Chairman, not to the Secretary of Defense. Frankly, this is how the 
system largely works in practice anyway; and it would merely codify the 
existing custom into a sensible, linear chain of command. The Service 
Chiefs should continue to focus on train, equip, and organize 
functions, with additional responsibility for acquisition, reporting to 
the Service Secretaries.
    Finally in this regard, it is worth looking at the entire system of 
``Joint Credit'' for promotion, and potentially shifting the 
requirement for ``Joint Credit'' up to the 0-8 or even the 0-9 level. 
This would also permit dropping a significant number of ``joint 
billets'' which are needed to keep access to joint credit available to 
everyone. All of this would potentially permit reducing the total size 
of the officer corps.
    Unify Joint Professional Military Education (i.e. all of the War 
Colleges) Under one 3-star officer, who would also be the President of 
the National Defense University.
    Given the need for a coherent, unified curriculum under Joint 
aegis, having a single chain of command (as opposed to each of the 
Services) controlling Joint Education at the highest levels might make 
sense. This officer could then report to the Chairman of the Joint 
Chiefs, functioning somewhat like a Combatant Commander for 
intellectual, research, and joint educational matters.
    The cultural, educational, and organizational power of unifying the 
various War Colleges may make sense and, by the way, serve as a central 
point of effort to organize the study required to consider the other 
changes discussed herein. This command would then be essentially the 
intellectual arm of the General Staff described above.
    All of these ideas are highly controversial, bordering on 
heretical. And I freely admit they may not be the exact right next 
moves. But I offer them as an examples of the kind of thinking we need 
to undertake on the upcoming 30-year anniversary of Goldwater-Nichols, 
which shook us up but may not have taken us far enough down the road to 
truly Joint, Interagency, and International / Coalition operations--
which collectively represent the future of security in this turbulent 
21st century.

    Chairman McCain. Thank you, Admiral.
    Dr. Lamb?

 STATEMENT OF DR. CHRISTOPHER J. LAMB, DEPUTY DIRECTOR OF THE 
  INSTITUTE FOR NATIONAL STRATEGIC STUDIES, NATIONAL DEFENSE 
                           UNIVERSITY

    Dr. Lamb. Senator McCain, Senator Reed, and members of the 
committee, thank you for the opportunity to share my views on 
improving the effectiveness of military operations this 
morning. Your invitation to testify is a great honor and 
especially so considering the distinguished service of your 
other witnesses today, General Schwartz and Admiral Stavridis. 
It is the high point of my career to be sitting with them today 
and in front of you, and I am really, truly humbled by the 
opportunity.
    I also want to acknowledge the presence of my wife who, in 
light of the unconventional things I am about to say, decided I 
needed moral support, and I agree with her.
    Chairman McCain. We will hold her in no way responsible.
    [Laughter.]
    Dr. Lamb. She will appreciate that I know.
    In my written statement, I argued for three sets of 
organizational changes to increase the effectiveness of U.S. 
military operations.
    First, to correct a persistent lack of preparedness for 
irregular threats, I argue that we should give USSOCOM [U.S. 
Southern Command] the lead for small unit irregular conflict 
and the Marine Corps the lead for larger irregular conflicts.
    Second, to make the best possible investments in military 
capabilities and maintain our advantages in major combat 
operations, I believe we should encourage the use of horizontal 
teams in the Department of Defense and support their work with 
collaborative management or joint scenarios, operating 
concepts, data, methods of analysis, risk metrics, and 
institutional knowledge. And I completely agree with General 
Schwartz that we need to reinvigorate our approach to joint 
headquarters so that we have standing task forces ready to 
experiment with and test new joint concepts.
    And then, finally, to better integrate military operations 
with other instruments of national power, I believe we need 
legislation that allows the President to empower leaders to run 
interagency teams.
    None of these recommendations are unique to me, and they 
have all been made before by various groups and individuals. 
But I hope now is an opportune time for the Senate and the 
leadership in the Department of Defense to reconsider their 
merits.
    In the brief time remaining, I would like to address some 
likely questions about these recommendations, particularly with 
respect to horizontal or sometimes referred to as cross-
functional teams because I know that members of the committee 
have expressed some interest in that. And so I want to raise a 
number of questions that are likely to come up in this area.
    First of all, it is often asked whether all national 
security problems are not inherently complex and therefore 
require cross-functional teams. My response to that would be 
no. Clausewitz famously argued the most important judgment a 
statesman and commander have to make is determining, quote, the 
kind of war in which they are embarking, neither mistaking it 
for nor trying to turn it into something that is alien to its 
nature.
    I think the same thing holds true for national security 
problems more generally. We need to determine the kind of 
problem being addressed. Not all military tasks are 
intrinsically joint. Not all national security missions are 
intrinsically interagency. If we say otherwise, we greatly 
increase the risks of failing to bring the right type of 
expertise to bear on the problem at hand.
    Another question that frequently arises is whether all 
groups with representatives from functional organizations are, 
in effect, cross-functional teams. No. There is a huge 
difference between a committee and a team in the executive 
branch. The members of the committee, to use some shorthand, 
typically give priority to protecting their parent 
organization's equities, and the members of a cross-functional 
team give priority to the team mission.
    So why do some groups work like teams and some groups work 
like committees? For example, why do all executive branch 
cross-functional groups not work as well as, say, an Army 
battalion headquarters, which also has to integrate functional 
expertise from the artillery, the infantry, armor, et cetera? 
Well, I think the answer is that the difference is the degree 
of autonomy exercised by the functional organizations and the 
degree of oversight exercised by their common authority. In a 
battalion headquarters, all the participants share a cross-
cutting culture, have the obligation to follow legal orders, 
and receive direct and ongoing supervision from the battalion 
commander. Most interagency groups consist of members from 
organizations with quite different cultures, different legal 
authorities and obligations, and no supervision from the only 
person in the system with the authority to direct their 
behavior, the President.
    Another question often raised is whether we do not already 
have in effect good interagency teams with empowered leaders, 
for example, the State Department's country teams. Ambassadors, 
after all, have been given chief of mission authority by the 
President.
    Well, first of all, there are notable exceptions to that 
authority to the ambassador, particularly with respect to 
military and covert operations. But in any case, the 
ambassador's authority is not sufficient. Many ambassadors are 
perceived as representing State's interests rather than 
national interests. Hence, the country team members often feel 
justified in working around the ambassador, and the direct 
supervision of the President is so far removed that many of the 
people on the country teams feel that they can do that and 
actually be rewarded by their parent organizations for doing 
so.
    I will stop there, but I want to close by anticipating one 
final reaction to the proposals for horizontal teams. Some will 
invariably complain that this is all rather complicated and 
that at the end of the day, we are better off just finding and 
appointing good leaders. This is an understandable but 
dangerous simplification.
    First, as Jim Locher likes to say, there is no need to 
choose between good leaders and good organizations. We need 
both. Horizontal teams cannot be employed to good effect 
without supportive and attentive senior leaders, but neither 
can senior leaders of functional organizations solve complex 
problems without organizations that are engineered to support 
cross-cutting teams.
    Second, in the current environment, titular leaders simply 
lack the time to supervise every or even the most important 
cross-cutting problems. Neither is it sufficient to simply 
insist that their subordinates, quote, get along. The heads of 
functional organizations have an obligation to represent their 
organization's perspectives and expertise. This obligation, 
reinforced by bureaucratic norms and human nature, ensures that 
group members with diverse expertise will clash. Conflicting 
views are healthy, but they must be productively resolved in a 
way that gives priority to mission success and not less noble 
factors.
    Finally, I would dare to say that the intense focus on 
leadership, particularly in this town, has always struck me as 
rather un-American. Our Founding Fathers realized the American 
people needed more than good leadership. They paid great 
attention to organizing the government so that it would work 
well or work well enough, even if it is not always led by 
saints and savants. We should do the same with respect to the 
Department of Defense and the national security system. Right 
now, I do not believe the men and women who go in harm's way 
for our collective security are backed up by the best possible 
policy, strategy, planning, and decision-making system. That 
can and should change, and I am glad the committee is looking 
into this matter.
    Thank you again for this opportunity to share some results 
of our research at National Defense University. I look forward 
to answering any questions you might have.
    [The prepared statement of Dr. Lamb follows:]
             prepared statement by dr. christopher j. lamb*
    Senator McCain, Senator Reed, and members of the Committee, I 
greatly appreciate the opportunity to share some of my research and 
views on defense reform. The invitation to testify to the Senate Armed 
Service Committee is a great honor, especially considering the stature 
of your other witnesses today and their records of service to our 
country. It is humbling to be sitting next to them and in front of you 
today. I understand the Committee is interested in organizational 
changes that could increase the effectiveness of U.S. military 
operations and whether current combatant command and Service structures 
provide the necessary strategic planning and military readiness to 
ensure operational excellence. I hope to provide some useful insights 
for your consideration on those topics.
    My testimony identifies three major impediments to high performance 
in military operations that can be corrected. Most of my 
recommendations involve the Department of Defense, but I also argue 
that interagency teams could be structured and incentivized to improve 
performance for some types of military operations. Fielding interagency 
team would require some changes in the way we structure and run the 
larger national security system.
    My views on these topics are shaped by my experience as a Foreign 
Service officer and mid-grade executive serving in both the Pentagon 
and Department of State over the past 20 years, and by research this 
past decade at National Defense University, including organizational 
performance studies in support of the 2006 Quadrennial Defense Review 
and for the Project on National Security Reform. I am on record as a 
strong proponent of defense and national security organizational 
reform, and this testimony draws heavily upon previous research. Where 
appropriate I cite such research in support of my recommendations.
                              why reform?
    Not everyone will agree there is a defense performance problem 
worthy of the Senate's attention. However, I believe that reforms in 
several areas could improve the effectiveness of military operations. A 
brief overview of major trends helps explain why. At the outset of 
World War II we were not as well prepared for war as our enemies, but 
we prevailed by learning, adapting and out-producing our foes. At war's 
end the United States accounted for just under forty percent of global 
gross domestic product. The resource preeminence of the United States 
put us in a good position to ensure permanent readiness against the 
global Soviet threat. During the Cold War we built new institutions to 
safeguard our freedoms, and we out-lasted the enemy. After Vietnam we 
instituted an all-volunteer military, executed a revolution in military 
training techniques, leveraged technology successfully with 
increasingly realistic testing (compared to our World War II 
performance), and finally fixed our most egregious operational command 
and control problems with the Goldwater-Nichols legislative reforms. 
The result was stable nuclear deterrence and unparalleled world-leading 
conventional military forces. Our one glaring weakness throughout this 
period was poor performance against irregular threats.
    The terror attacks on September 11, 2001 highlighted this weak spot 
and also its strategic import. 9/11 drove home the reality that 
terrorists are willing to and capable of launching mass-casualty 
attacks against us and our allies. In responding to 9/11 the national 
security system performed well in some areas. Success was usually a 
function of departments and agencies conducting their core missions 
extremely well, or leaders pioneering ways to generate new levels of 
interdepartmental cooperation on nontraditional missions. However, the 
system performed poorly on the whole, demonstrating our historic 
inability to counter irregular threats well. The United States spent 
prodigious sums, organized world-wide coalitions, swept large enemy 
formations from the field, and targeted terrorists and insurgent 
leaders on an industrial scale, but exercised little influence over 
eventual outcomes in Afghanistan and Iraq. We squandered resources, 
lost public support, and arguably generated as many terrorists as were 
eliminated.
    Despite fifteen years of war, the threat of catastrophic terrorist 
attacks remains. Distracted, if not exhausted by fifteen years of 
conflict, we have seen our notable advantages in major combat 
capabilities diminish relative to some nations that are exploiting the 
global explosion in information technologies. Areas that used to 
constitute an unhindered, unilateral advantage for U.S. forces are now 
subject to challenge. The credibility of our aging deterrent forces 
against weapons of mass destruction is also growing suspect. With our 
share of global gross domestic product roughly half of what it was 
following World War II and projected to decline in relative

    ----------
    *  The views expressed are those of the author and do not reflect 
the official policy or position of the National Defense University, the 
Department of Defense, or the U.S. Government.
terms, peer competitors are likely to emerge much earlier than we 
anticipated following the collapse of the Soviet Union and prior to 9/
11.
    This broad overview of defense performance prompts several 
observations about the need for defense reform. First, we are long past 
due for correcting our persistent difficulties in dealing with 
irregular threats. Second, if resource overmatch was ever a good 
strategy, it has lost its luster and is no longer affordable. To 
maintain our current advantages in major combat operations we need to 
improve our ability to make good decisions on investments in military 
capabilities going forward. Third, effective military operations alone 
are insufficient. They must be integrated effectively with other 
instruments of power, something we currently do quite poorly. It is 
imperative that we improve our ability to collaborate across 
departments and agencies. In particular, the time has come to give the 
President the authority to delegate his authority for integrating 
department and agency efforts to manage or resolve complex, high-
priority national security problems. In sum, we need a Pentagon that 
can manage the full range of security challenges; rationally allocate 
resources to priority missions; and collaborate well with other 
departments, agencies and allies. Consequently it is important to 
identify major impediments to these performance aspirations and 
understand how they might be overcome.
               reforming irregular conflict capabilities
    Although irregular conflict is the subject of endless debate and 
terminological controversies, we understand its distinguishing features 
and why they require different military capabilities. In large-scale, 
force-on-force combat operations the primary operational objective is 
destruction of enemy capabilities, which sets the conditions for 
subsequent political relationships. In major combat operations military 
necessity take precedence over all other concerns except the purpose 
for which the war is being fought. All other objectives remain in doubt 
until the adversary's ability to resist is overcome. In contrast, 
military objectives are subordinate to, and constantly informed by, 
numerous political considerations in irregular conflict. In irregular 
conflict the immediate objective is not to take terrain and destroy 
forces, but to alter political relationships and, by extension, 
adversary behavior. Military operations are constantly tailored to and 
constrained by political considerations even down to the tactical 
level, which these kinds of military operations different and 
demanding.
    Irregular conflicts take much longer, so patience and perseverance 
are necessary, and taxing. Protracted engagements make it imperative 
that costs--human, material, and political--be kept low. Popular 
political support (host country, U.S. domestic and international) 
determines which side will be able to best inform and sustain their 
operations, and our partners know and understand local populations far 
better than we do. When one of the protagonists can no longer count on 
the passive or active support of key population groups, they must 
reduce their presence, withdraw, or otherwise abandon their efforts. 
Thus, both to reduce costs and be effective, it is often advisable for 
the United States to work well with third parties, which is not easy to 
do.
    For all these reasons, prevailing in irregular conflict requires 
military forces with some new or modified capabilities, or increased 
quantities of existing capabilities in the following areas:
    <bullet>  Force protection to keep casualties proportionate to the 
perceived US interests at stake; without it U.S. public support 
dwindles over time. In irregular conflict force protection is more 
demanding because it is difficult to identify the enemy, which means 
ambushes, surprise attacks, and acts of terror are the norm.
    <bullet>  Discriminate and proportionate force to keep the enemy on 
the defensive without provoking popular discontent, and over time to 
make the population feel secure enough to resist enemy coercion or 
better, to assist U.S. and allied forces. In major combat operations 
the U.S. military wants to avoid harm to non-combatants or exerting 
more force than necessary to achieve military objectives. However, 
these objectives are subordinate to the success of their military 
missions. In irregular conflicts the opposite is true; proportionate 
and highly discriminate use of force is a prerequisite for success.
    <bullet>  Special intelligence in irregular conflict is complex and 
more critical. In large-scale combat operations the intelligence 
community can focus on a standard set of primary indicators and 
warnings for enemy disposition, composition, and movement. Our most 
likely combat opponents and their order of battle are usually known 
well in advance of hostilities. In irregular conflict intelligence is 
required on short notice and for a broad set of social, political and 
military subjects, often cannot be collected by traditional technical 
means, and is more difficult to interpret once collected.
    <bullet>  Persuasive communications to influence foreign audiences 
with messages supportive of U.S. policy are more important in irregular 
conflict for the simple reason that it is difficult for terrorists to 
survive without popular support and impossible for insurgents. Hence, 
every effort must be made to convince the population that even passive 
support of the enemy is not in its interests. Persuasive communications 
are always difficult because they require a deep understanding of 
target audiences, but in irregular conflicts they also need to be 
immediately responsive to tactical developments to be effective.
    <bullet>  Modified command and control to ensure unified effort 
across diverse government departments and agencies and with allies. The 
requirement to apply all instruments of national power instead of 
relying primarily on military force means that irregular conflict is an 
intensely interagency effort. Moreover, policy and strategy in 
irregular conflicts are more fluid and must repeatedly be translated 
into realistic operational requirements. In turn operational plans must 
be carefully tailored to support policy objectives and repeatedly 
updated.
    This list could be expanded, and the nomenclature, relative 
importance, situational impact, role of technology and many other 
aspects of irregular conflict could be debated, but these broad 
requirements are well-known and well-represented in all the classic 
literature on the topic, including our own U.S. Marine Corps Small Wars 
Manual. So it is significant that the Department of Defense did a poor 
job of fielding capabilities for irregular conflict in Afghanistan and 
Iraq.
    This past year researchers at National Defense University completed 
a comprehensive review of lessons from the past decade and a half of 
war. \1\ After reviewing 23 senior leader accounts from both the Bush 
and Obama administration, as well as more than one hundred insider 
accounts, influential articles, blue-ribbon commissions, think tank and 
inspector general reports, it is clear there is a broad consensus that 
we performed poorly on strategic communications, specialized 
intelligence and equipment, and in providing civil-military 
administrative capacity for better governance.
---------------------------------------------------------------------------
    \1\  Christopher Lamb with Megan Franco, ``National-Level 
Coordination and Implementation: How System Attributes Trumped 
Leadership,'' in Richard D. Hooker, Jr., and Joseph J. Collins, Hooker 
and Joseph Collins, eds., Lessons Encountered: Learning from the Long 
War, National Defense University Press, 2015.
---------------------------------------------------------------------------
    There were bright spots to be sure. We achieved unprecedented 
integration of all-source intelligence in support of high-value 
targeting, and ground forces received equipment previously available 
only to Special Operations Forces (SOF): body armor, latest generation 
night vision goggles, intra-squad communications gear, tactical 
satellite radios, tactical unmanned aerial vehicles, etc. We went from 
having 8 unmanned aerial vehicles in Iraq in 2003 to 1,700 by 2008, and 
within 18 months we deployed thousands of mine-resistant, ambush-
protected (MRAP) vehicles to theater--an accomplishment some have 
described as an industrial feat not seen since World War II. To get 
these kinds of capabilities to the troops the Pentagon created new 
organizations and streamlined procedures and Congress supported these 
efforts by making copious amounts of funding available. Even so, and 
despite urgent requests from commanders in the field, much of this type 
of capability was late to need, and arrived only after senior leaders 
mounted extraordinary efforts to squeeze them out of a reluctant 
bureaucracy. Worse, much of this new-found capacity is now being 
abandoned.
    For example, it took the Department a long time to realize that 
defeating insurgents, partnering with host-nation officials, and 
winning popular support are hardly possible without a profound 
understanding of local social and political relationships at all 
levels. The need for socio-cultural understanding has been cited as one 
of the ``top 5'' lessons learned from the wars in Afghanistan and Iraq, 
a view echoed by many senior leaders in the Department of Defense. Yet 
the U.S. military's traditional pattern of behavior on sociocultural 
knowledge is reemerging. After we develop sociocultural expertise at 
greater-than-necessary expense and too late to ensure success, we then 
abandon the hard-won capability as part of post-conflict budget 
reductions or out of deference to prevailing American strategic 
culture, which favors technology, small-unit combat skills, and large-
scale military maneuver training rather than a deep understanding of 
our adversaries and their societies. Much of the organizational 
architecture developed to provide sociocultural knowledge to U.S. 
forces is being dismantled. The Army's Irregular Warfare Center and 
Human Terrain Team programs have been shut down, and officers 
participating in the Afghanistan-Pakistan Hands Program are not being 
promoted at rates comparable to the rest of the Army.
    We also were slow to recognize irregular threats that arose in the 
aftermath of our regime-change operations. It took years to produce 
leadership, concepts, and viable plans for countering insurgents. When 
some of our more capable and innovative field commanders combined 
traditionally effective counterinsurgency techniques with an astute 
appreciation of local political realities, they were uncommonly 
successful. In a healthy, high performing organization these 
extraordinary successes would have been rapidly recognized, rewarded, 
and replicated. Our record in this regard is spotty. Anecdotally, it 
appears extremely successful field commanders were passed over for 
promotion or promoted only after intervention by senior civilian 
leaders.
    The replication of these successful examples was even more limited. 
The U.S. military adopted proven counterinsurgency techniques slowly 
and unevenly. In part this was because the methods used to achieve 
tactical successes challenged prevailing policy and strategy. Tactical 
partnering with local forces could fuel sectarian sentiments and 
undermine formal Iraqi governmental structures the United States was 
committed to supporting; it also often involved working with local 
leaders with checkered pasts or who were judged to be marginal players; 
and it ran counter to our policy of transferring responsibility for 
security to Iraqi military forces as quickly as possible, which was 
based on the assumption that the mere presence of U.S. forces was an 
irritant to be minimized as a matter of priority. For all these and 
other reasons the tactical successes of Marine and Army field 
commanders in late 2004 and 2005 failed to prompt a rapid reassessment 
of these policy and strategy assumptions.
    Our desire to pass responsibility for security to host-nation 
forces also was handicapped by lack of preparedness for irregular 
conflict. In both Afghanistan and Iraq, the United States had no plans 
for establishing local security forces and proceeded on an ad hoc 
basis. Once the efforts were under way we developed security forces 
modeled on U.S. institutions even though the local political, economic, 
and social conditions ``made U.S. approaches problematic and 
unsustainable without a significant U.S. presence.'' \2\ We also 
encouraged short tours and optimistic reporting, which made it 
difficult to evaluate actual progress. In turn, the longer it took 
commanders to recognize gaps between desired and actual performance, 
the longer it takes to adapt more effective methods.
---------------------------------------------------------------------------
    \2\ T.X. Hammes, ``Raising and Mentoring Security Forces in 
Afghanistan and Iraq,'' in Lessons Encountered.
---------------------------------------------------------------------------
    In short, our performance in Afghanistan and Iraq reinforced 
awareness that we are poorly prepared for irregular conflict. This was 
true before 9/11 and, with the exception of hunting high-value targets, 
largely remains the case today. Innumerable studies and Pentagon 
directives over the past decades have identified this problem and 
attempted to fix it by encouraging the Services to take the mission 
more seriously. On at least three occasions since World War II national 
leaders spent major political capital trying to force a solution. The 
Soviet Union's support for ``wars of national liberation'' led 
President John F. Kennedy to embrace Special Forces and unconventional 
warfare, even replacing an Army Chief of Staff who he believed was 
unsympathetic to his plans. In 1986, after years of poor responses to 
terrorism and other political-military problems, Congress mandated new 
special operations and low-intensity conflict organizations over the 
objections of the Pentagon. More recently, Secretary of Defense Robert 
Gates launched his own personal effort to get the Pentagon to better 
balance conventional and irregular capabilities. These efforts failed, 
and it is not hard to see why.
    We keep asking organizations that are raised, trained and equipped 
to conduct large-scale force-on-force combat operations to also conduct 
irregular conflict as a lesser-included mission. They invariably give 
priority to what they consider their more important core missions, and 
are slow to comprehend, much less invest in irregular conflict concepts 
and capabilities. They argue irregular conflict is not sufficiently 
different from conventional war to justify separate capabilities. They 
insist SOF have the mission covered, and that allies and other U.S. 
departments and agencies should do more. If forced to invest in 
irregular capabilities, the Services pursue less costly non-material 
initiatives like education and training that can be more easily 
reversed. They argue their future capabilities will be equally 
effective in all types of conflicts, so there is no need to buy 
equipment for irregular conflict now. If they must buy such equipment 
they typically abandon it as quickly as possible to avoid maintenance 
costs. \3\ If assigned an irregular conflict campaign, our field 
commanders learn on the fly.
---------------------------------------------------------------------------
    \3\ Christopher J. Lamb, Matthew Schmidt and Berit Fitzsimmons 
``MRAPs, Irregular Warfare, and Pentagon Reform,'' Occasional Paper, 
Institute for National Strategic Studies, National Defense University, 
June 2009.
---------------------------------------------------------------------------
    Besides Service cultures focused on major combat operations, there 
are other factors handicapping readiness for irregular conflicts. 
Asking all the Services to be equally responsible for the mission just 
makes it easier for everyone to ignore the responsibility and harder 
for anyone to be held accountable for results. Also, irregular 
conflicts require a flexible approach to requirements and acquisition 
but the Pentagon usually does not do business this way. General 
requirements for irregular conflict are well-known but the amount and 
specific types of equipment needed are highly situation-dependent, 
transitory and difficult to establish in advance. What we need is a 
solid research and development base and some programs of record that 
can be rapidly expanded depending on emergent needs. This is precisely 
what Secretary Gates wanted to do when he called for the 
institutionalize procurement of [irregular] warfare capabilities.'' But 
with the exception of USSCOM, which was granted unusual acquisition 
authorities by Congress, this sort of approach to irregular conflict 
programs is difficult in today's Pentagon. Finally, without a clear 
mission-lead the largest rather than the best-suited military 
organizations dominate command and control of deployed forces in 
irregular conflict (again SOF sometimes being an exception). As a 
result we often operate with less effectiveness early on, make the 
situation worse and inadvertently raise costs.
    In my opinion we now have overwhelming evidence that the United 
States will not have a standing and ready irregular conflict capability 
until it clearly assigns that mission to specific organizations that 
are culturally capable of executing it and rewarded for doing so. 
USSOCOM promulgates four SOF ``truths:'' that in special operations 
humans are more important than hardware; SOF cannot be massed produced; 
quality is better than quantity; and competent SOF cannot be created 
after emergencies occur. These same truths largely apply to irregular 
conflict. We did not get world-class SOF without a powerful 
organization assigned to organize, train, equip and employ these 
forces, and the same has proven true for irregular conflict more 
broadly. Conventional forces can ``learn'' and prepare for irregular 
conflict after the fact, but the costs of doing so are high and the 
results are poor.
    Different ways of ensuring irregular conflict capabilities have 
been proposed, including the creation of large new organizations, but 
the most sensible and politically feasible option would be to leverage 
the parts of the Department of Defense that are historically most 
proficient in irregular conflict: Special Operations Forces and the 
U.S. Marine Corps. In effect, we need to adjust military roles and 
missions to assign a clear division of labor for irregular conflict in 
a tiered approach. USSOCOM should be, and to some extent already is, 
the preferred option for small unit direct and indirect irregular 
conflict, but it needs to be upgraded to conduct indirect missions 
better. \4\ The U.S. Marine Corps has comparative advantages at the 
lower-end of the conflict spectrum compared to the Army, and with some 
increases in authorities, force structure and equipment could take the 
lead role successfully for larger-scale irregular conflicts.
---------------------------------------------------------------------------
    \4\ The case for improving USSOCOM's indirect capabilities is made 
in ``The Future of U.S. Special Operations Forces,'' a prepared 
statement of Christopher J. Lamb before the Emerging Threats and 
Capabilities Subcommittee, House Armed Services Committee, U.S. House 
of Representatives, July 11, 2012.
---------------------------------------------------------------------------
    USSOCOM already is assigned the lead for many irregular conflict 
missions that can be conducted by small units, but its indirect 
capabilities need to be upgraded. By indirect, I do not mean ``non-
lethal,'' as is often supposed. I mean working by, with and through 
foreign forces and populations with both lethal and non-lethal 
capabilities. Our preferred approach to irregular conflict should be 
working with host-nation forces, both to be more effective and to 
reduce the resource and political commitments of the United States. 
Indirect missions require greater specialization in what some call 
SOF's ``warrior-diplomat'' or ``cross-cultural'' skill sets, including 
a deeper understanding of indigenous forces and populations. Direct SOF 
missions require more emphasis on technical skills, particularly those 
highly specialized capabilities involved in direct action behind enemy 
lines. For SOF to be equally well prepared for indirect and direct 
missions some units must weight their training and equipment toward 
warrior-diplomat skills while others concentrate on what some refer to 
as the SOF ``commando'' skills.
    If USSOCOM is going to excel not only at special operations but 
also at irregular conflict more generally, it must put much greater 
emphasis on its ability to conduct missions indirectly. SOF indirect 
approaches and capabilities are as valuable and challenging to build, 
maintain and employ as SOF direct action capabilities. Somewhat 
counter-intuitively, SOF indirect capabilities have actually atrophied 
this past decade; arguably when they could have been most useful. 
Successful indirect efforts in places like the Philippines were 
overshadowed by SOF direct action missions in Afghanistan and Iraq. 
Even SOF units that traditionally demonstrate greater appreciation for 
indirect approaches often paid more attention to direct action against 
terrorists and insurgent leaders in those countries. \5\ Army Special 
Forces in particular have sacrificed area orientation, language 
proficiency, and cultural appreciation within their assigned regions 
since 9/11. The operational demands of the Iraq and Afghan theaters led 
to a substantial degradation of SOF indirect skills.
---------------------------------------------------------------------------
    \5\ ``The Future of U.S. Special Operations Forces,'' Prepared 
Statement of Christopher J. Lamb before the Emerging Threats and 
Capabilities Subcommittee, House Armed Services Committee, U.S. House 
of Representatives, July 11, 2012. 25 pages.
---------------------------------------------------------------------------
    Reconstituting these critical capabilities requires significant 
investment and leadership. USSOCOM leaders are aware of the problem and 
have been trying to upgrade SOF indirect capabilities. How well they 
are doing is a matter of great import. USSOCOM needs better socio-
cultural knowledge; better persuasive information capabilities; more 
robust and quicker access to civil affairs skills; adjustments to the 
SOF selection process; a Washington presence for its indirect 
leadership and some indirect programs; new approaches to interagency 
collaboration on indirect approaches to irregular conflict; new 
authorities to oversee security assistance programs on a multi-year 
basis; and perhaps separate budget lines for direct and indirect 
capabilities. If the Committee looks into it and concludes USSOCOM is 
failing to provide these kinds of improvements, it may want to 
investigate new sub-unified commands for USSOCOM that cooperate but 
concentrate on the direct and indirect approaches, respectively. \6\
---------------------------------------------------------------------------
    \6\ A case for this is made in David Tucker and Christopher Lamb, 
U.S. Special Operations Forces, Columbia University Press, 2007.
---------------------------------------------------------------------------
    For irregular conflict problems that cannot be contained and well-
managed by small SOF teams, we would call upon the U.S. Marine Corps. 
The Marines would be assigned the lead role for large-scale, direct 
interventions against irregular opponents. The Marines would partner 
with USSOCOM, concentrate on the least secure areas that demand the 
most direct attention, and in more secure areas use their 
infrastructure to assist USSOCOM's small-unit, indirect operations with 
host-nation forces. Of course the Army, Navy and Air Force would lend 
support for joint operations as necessary, but in terms of training and 
equipping their forces, they would be free to concentrate on major 
combat operations. Any irregular conflict mission requiring more than 
the combined forces of USSOCOM and the U.S. Marine Corps should 
probably be reconsidered, but in extremis other forces could be 
assigned to operate under their direction as necessary.
    The U.S. Marine Corps would require additional resources to be well 
prepared for its new, priority irregular conflict responsibilities. It 
would need new authorities for command of irregular conflict missions 
and fielding of irregular conflict equipment similar to the authorities 
Congress granted USSOCOM. Similarly, and again like USSOCOM, the 
Marines should be granted special irregular conflict acquisition 
authorities so that they could rapidly integrate and field relevant 
technology and equipment tailored for irregular conflicts. In addition, 
it would be necessary to increase Marine force structure and transfer 
some existing capabilities for irregular conflict from the Services; 
the types of irregular conflict capabilities the other Services have 
long refused to purchase and maintain. This would include slower fixed-
wing aircraft for reconnaissance and close fire support; brown- and 
green-water vessels for inland waterways and coastal patrol boats; up-
armored vehicles; etc. The Marines would maintain a prudent technology 
base for irregular conflict capabilities that could be modified and 
expanded as circumstances warrant, much as they have tried to do with 
non-lethal weapons. It should be relatively easy for the Marines to 
integrate these kinds of irregular conflict capabilities since they 
already have air, naval, amphibious, ground and support capabilities 
that are integrated down to the tactical level.
    With USSOCOM taking the lead on small unit irregular conflict 
missions like the raid on Bin Laden's hideaway and the advisory mission 
to the Philippines, and the Marines taking responsibility for larger 
direct interventions against irregular opponents such as we faced in 
Afghanistan and Iraq, the nation would be much better prepared for 
irregular conflicts. And the Services would not be distracted from 
their focus on major combat operations. Instead of spending valuable 
senior leader time and scarce training resources on difficult programs 
like regionally-aligned brigades, the Army, Navy and Air Force could 
concentrate on reestablishing our diminishing lead in major combat 
operations.
    This division of labor would be more efficient in the short and 
long-term. Short-term savings would come from abandoning universal 
requirements like language training, irregular forces at major combat 
training centers, efforts to improve training of foreign forces 
throughout our force structure, etc. Critical irregular conflict 
requirements such as force protection (e.g. up-armored vehicles), 
discriminate force (e.g. non-lethal weapons, Military Police); 
intelligence (e.g. persistent counter-insurgent ISR, Human Terrain 
Teams, Foreign Area Officers and programs), persuasion (e.g. 
psychological operations), and command and control (e.g. multi-level 
shared communications architectures) and other niche capabilities (e.g. 
countering-IEDs) could be transferred and consolidated under USSOCOM 
and the Marine Corps.
    The Department of Defense already expends considerable resources to 
maintain a high state of readiness for SOF and the Marines, 
particularly in training, air and sea-lift, and amphibious 
capabilities. These organizations are already postured for global, 
expeditionary operations with minimum overseas infrastructure. It is 
inherently more efficient to ask them to serve as the first, second and 
preferred proponents for irregular conflict than to ask all the 
Services to maintain readiness for the same. For example, the Marines 
already have the expeditionary infrastructure to manage brown- and 
green-water operations more efficiently than the Navy, and provide 
responsive close air support in irregular conflict operations more 
readily than the Air Force.
    Over the long-term the Department of Defense could expect better 
performance and additional savings from operational efficiencies. 
Assigning the irregular conflict mission to USSOCOM and the U.S. Marine 
Corps would increase the chances that such operations could be 
conducted with a small footprint and expert command and control. 
Irregular conflict requires inherently ``joint,'' interagency and 
multinational operations. Both USSOCOM and the Marines are 
intrinsically joint and capable of working with interagency partners as 
demonstrated historically and in recent operations. SOF are 
particularly well adapted to work through third parties with small 
numbers of advisors. If an irregular conflict problem exceeded SOCOM's 
capacity the Marines could draw upon those historical, cultural and 
structural attributes that make them a more efficient irregular 
conflict mission partner than the larger Services, including a higher 
tooth-to-tail ratio. \7\ If, in extreme circumstances, the other 
Services were needed they would support the Marines and SOF. Inverting 
the general rule that the largest forces have the top command slots 
would help ensure tactical irregular operations are controlled by 
appropriate expertise from the beginning.
---------------------------------------------------------------------------
    \7\ It has been argued that the ``every marine is a rifleman'' 
ethos ``allows a high degree of adaptability'' for irregular warfare 
missions. Michael R Melillo, ``Outfitting a Big-War Military with 
Small-War Capabilities,'' Parameters. Carlisle Barracks: Autumn 
2006.Vol.36, Issue 3.
---------------------------------------------------------------------------
    This new division of labor makes particular sense in a time of 
declining resources when organizations naturally focus on what they 
consider to be their ``core competencies.'' A better division of labor 
takes advantage of this natural tendency to focus on core missions by 
reducing duplication and increasing specialization (i.e. competence). 
Currently Army efficiency is undermined by the view that it should be a 
``full-spectrum'' rather than a decisive land force. For example, a 
proper active-reserve balance would be easier to achieve if the Army 
focused just on decisive land battle. Similarly, Marine Corps 
efficiency would improve if the Marines' strategic concept 
unequivocally included irregular conflict. The Department of Defense 
already absorbs the cost of amphibious expeditionary units that have 
air, sea and land elements in an organization that has historically 
conducted irregular conflict well. It is more efficient to ask that 
organization to expand its existing elements to include capabilities 
for irregular conflict. In an emergency, the Marines--supported by Air 
Force and other naval forces--would still pack enough punch to stop 
most conventional aggressors until the Army arrived on the scene.
                   reforming pentagon decision making
    Limited Pentagon decision-making capacity also constrains the 
effectiveness of military operations. A decade ago the 2006 Quadrennial 
Defense Review report put major emphasis on improving decision-making 
capacity. It said ``the complex strategic environment demands that our 
structure and processes be streamlined and integrated to better support 
the President and joint warfighter;'' and ``recent operational 
experiences demonstrated the need to bring further agility, flexibility 
and horizontal integration to the defense support infrastructure.'' The 
report asserted the Department had ``moved steadily toward a more 
integrated and transparent senior decision-making culture and process 
for both operational and investment matters;'' that it had ``made 
substantial strides in . . . the creation of new organizations and 
processes that cut across traditional stovepipes;'' and ``most 
importantly, the Department has made notable progress toward an 
outcome-oriented, capabilities-based planning approach that provides 
the joint warfighter with the capabilities needed to address a wider 
range of asymmetric challenges.'' \8\
---------------------------------------------------------------------------
    \8\ Quadrennial Defense Review Report. Washington, D.C.: Dept. of 
Defense, 2006: pp. 65ff.
---------------------------------------------------------------------------
    The report was correct about the need to improve Pentagon decision-
making capacity, but overly optimistic about the amount of progress in 
that direction. Like many organizations the Pentagon is divided into 
hierarchical structures that represent different bodies of expertise: 
e.g. policy, intelligence, personnel, program analysis, acquisition, 
and budgeting. Within these bodies are subdivisions that further 
specialize in more narrowly defined subjects. These stove piped 
divisions each build and nurture expertise in a relatively narrow body 
of knowledge. There are advantages to such organizations but typically 
they are incapable of rapid, integrated decision making, which the 2006 
report acknowledged the Pentagon needed to keep pace with the evolving 
security environment. That conclusion is even more valid today.
    The Pentagon has elaborate processes and laborious coordination 
procedures to integrate diverse expertise across its functional 
organizations. Generally speaking, however, these attempts at 
integration produce compromises that paper over critical assumptions, 
distinctions, and differences of opinion that need to be resolved. 
Separate organizations in in the Office of the Secretary of Defense 
lead various stages of these decision-making processes. Each office 
leading a component part of the strategy process depends on other 
parties in the process to do their work well and protect the integrity 
of the decision process. Each organizational boundary crossed opens up 
an opportunity for the dilution of strategic logic.
    The overall process values compromise more than clear choices among 
competing alternatives. All organizations' equities are protected to 
the extent possible, which results in long lists of desired objectives. 
Offices managing the process further down the logic chain use those 
wide-ranging priorities as justification for picking and choosing their 
own areas to emphasize, which loosens the strategy logic, sometimes 
beyond recognition. The same types of compromises affect the Joint 
Staff's efforts to create meaningful joint operational concepts. 
Because the Department cannot make trades at these broader levels in 
the analytic chain of reasoning--strategy, planning and operational 
concepts--the rest of the downstream processes--requirements, programs 
and budgets--is managed without the benefit of broader context. \9\ 
Each link in the chain of reasoning tends to operate semi-autonomously. 
Thus the process is not truly ``strategy driven,'' which is a major 
reason the Department is unable to rationally allocate resources to 
produce the most valuable capabilities for the most important missions.
---------------------------------------------------------------------------
    \9\ The bureaucratic factors shaping these processes are further 
described in Christopher Lamb, ``Pentagon Strategies,'' in David 
Ochmanek and Michael Sulmeyer, eds., Challenges in U.S. National 
Security Policy: A Festschrift Volume Honoring Edward L. (Ted) Warner, 
(Arlington, VA: RAND, 2014); and in ``Acquisition Reform: The Case of 
MRAPs.'' Prepared Statement of Christopher J. Lamb before the House 
Armed Services Committee, U.S. House of Representatives, June 24, 2014.
---------------------------------------------------------------------------
    When diverse groups do meet to cooperate there are disincentives 
for information sharing and collaboration. Involving other parties 
slows and waters down the resultant products. One Joint Staff 
assessment in support of the 2006 QDR effort identified over 860 cross-
cutting groups that Joint Staff personnel attended. All but a handful 
of these groups were information-sharing and not decision-making 
bodies. Even so, they shared information incompletely because extant 
organizational incentives militate against transparency. When measured 
by what they produce, these groups absorb large amounts of staff time 
and energy without producing what the Chairman and Secretary need most, 
which is truly integrated assessments of problems, their causes and 
preferred solutions.
    The bureaucracy's penchant for producing consensus products 
encourages talented and highly motivated officials to get their 
positions directly to senior decision-makers by circumventing the 
formal coordination process. If the issue is simply a narrow functional 
concern, then a quick decision this way can be made without much risk. 
But the most important issues are increasingly multidisciplinary or 
cross-functional, and proposals presented by one functional entity 
invariably reflect a limited perspective that does not benefit from all 
relevant information. The narrow, functional proposals presented to the 
Secretary and Deputy Secretary often contradict one another, and with 
the limited information provided, it is difficult for these senior 
officials to determine which position is the more compelling and why. 
Thus it is difficult for senior leaders to make well-reasoned tradeoffs 
among competing alternatives.
    In essence, Secretaries and Deputy Secretaries have to serve as 
their own integrators of functional expertise, diving deeply into the 
issues that matter most to them to investigate the ``stove piped'' or 
``least common denominator'' products they receive and root out 
critical issues. This is what Secretary Gates did to ensure the 
delivery of needed armor and theater intelligence and surveillance 
assets to Iraq. Yet this is a difficult task for Secretaries of Defense 
and an inefficient use of their limited time. Pentagon organizations 
husband their information carefully. Data is safeguarded; analysis is 
not collaborative, methods, metrics and lexicon are not common or 
agreed upon; and institutional knowledge is not easily retained or 
retrieved for the benefit of all components. So it takes a great deal 
of time for the Secretary and Deputy Secretary to assess the competing 
positions presented to them. Moreover, they are constrained by the 
political liabilities of overriding powerful personalities and 
institutional interests. Hence, decisions tend to be made slowly if at 
all, or if in response to a crisis, made without the benefit of 
requisite information and supporting analysis.
    Not surprisingly, these circumstances frustrate Secretaries and 
Deputy Secretaries, who feel poorly supported by their staff. They 
often conclude, incorrectly, that it is the sheer size of the staff 
that prevents better decision support. In reality, it is the inability 
of their functional leaders to collaborate and produce integrated 
problem assessments and solution proposals. Staffs could be cut in half 
and the Secretary would receive 50 percent less paperwork, but he would 
not receive one smidgen more of the better integrated products he 
needs. In reality, Pentagon middle managers and action officers are 
working extremely hard; just not to good effect. The Pentagon's large 
staff ends up working marginal resource allocation issues, and consumes 
too much time and energy for too little effect. In essence, large 
amounts of the Secretary's most important and expensive commodity--
human talent--is wasted.
    Improving decision-making capacity in the Department of Defense 
requires holistic organizational reform. However, several fundamental 
changes are especially important. The Secretary cannot be the first 
point of integration for the Department's most important cross-
functional endeavors. He needs horizontal organizations empowered to 
generate cross-cutting problem assessments and solution alternatives. 
Such teams could manage cross-cutting functions for the Secretary but 
also oversee real-world missions that require the rapid integration of 
diverse functional specialties. They would examine problems ``end-to-
end'' and be the designated strategic integration point across all 
bodies of expertise, freeing up senior leaders to focus on key 
strategic decisions. The teams would intervene selectively to eliminate 
friction and sub-optimal efforts where component parts of the 
Department are not collaborating to maximum effect. The presumption is 
that the Secretary will back up their authority to intervene and obtain 
the results he wants. Leaders of functional organizations would be free 
to focus on problems resident within their domains.
    For the horizontal organizations to succeed, they must be 
constituted correctly and their leaders empowered appropriately. They 
must be given proper resources, to include office space, administrative 
support, and members committed for specific periods of duration and 
levels of effort. The groups also must be given clear objectives; 
preferably a clear, written mandate that identifies what is to be 
accomplished and why. The groups must be allowed to decide how to 
accomplish their objectives, identify their metrics for evaluation and 
feedback, and what expertise they need. Group members that represent 
bodies of functional expertise must be given incentives to collaborate 
with the other members of the group and not simply represent their 
parent organization's interests. This means the group leader must be 
able to return the expert in question to his parent organization and 
must have a say on their evaluations. If these horizontal organizations 
are not empowered, the reorganization efforts will fail. They will 
simply become another layer of advisory groups that further confuse the 
rest of the Pentagon entities about their respective roles and 
responsibilities.
    These cross-cutting teams would encounter less resistance from 
functional organizations if the Department could do a better job of 
determining which problems are actually cross-functional rather than 
primarily the responsibility of a single functional domain. In this 
regard the Department's tendency to label all operating concepts 
``joint'' complicates a proper division of labor between the Services 
and joint entities. Our broadest operating concepts are invariably 
joint but many subordinate operating concepts like anti-submarine 
warfare should be considered ``Service-centric'' and left to the 
Services to formulate and update. There may be an element of joint 
command and control or information sharing involved in Service-centric 
military concepts of operation but the vast bulk of the requisite 
expertise is resident in a single Service. Distinguishing between 
operating concepts that are intrinsically joint, like theater air and 
missile defense, and concepts that are largely the preserve of one 
Service, would make a meaningful division of labor between the Services 
and joint entities much easier.
    To better support decision making by senior officials and their 
cross-cutting teams, the Pentagon also needs a reformed decision 
support culture. In the training revolutions of the 1970s the Services 
transformed their combat capabilities by introducing objective, 
empirical feedback into training exercises with the aid of new 
simulation technologies and after-action reports to improve learning 
and future battlespace decision making. The new training approaches 
instilled respect for collaboration, information sharing, and empirical 
objectivity. A similar transformation of Pentagon decision support 
capabilities is needed, and it would require sustained attention from 
the Secretary.
    To begin with, the Secretary would have to make a point of 
insisting on collaboration from senior leaders. He can do this through 
his personal example and key hiring decisions. The Secretary also would 
need a small technical support staff that I have referred to elsewhere 
as a Decision Support Cell, \10\ to oversee the new approach to 
information sharing in support of analysis. The cell would ensure that 
decision support is transparent, based upon clear assumptions about 
security challenges and options to meet those challenges. In 
particular, it would be responsible for ensuring all organizations have 
equal access to the same joint scenarios (to bound the assumptions 
about priority problem sets); authoritative joint operating concepts 
(testable preferred ways to solve operational problems); joint data 
(common assumptions about forces, performance, terrain, etc.); joint 
methods of analysis (transparent means of assessing risk); joint 
operational risk metrics (standards for measuring value and risk); and 
repositories of institutional knowledge (the means to retrieve and 
build upon knowledge). Currently no single entity has the authority to 
produce these necessary precursors for good analysis of alternatives.
---------------------------------------------------------------------------
    \10\ Christopher Lamb and Irving Lachow, ``Reforming Pentagon 
Decisionmaking with a Decision Support Cell,'' Strategic Forum No. 221, 
Institute for National Strategic Studies, National Defense University, 
July 2006.
---------------------------------------------------------------------------
    Finally, the Department needs some selective investments in greater 
jointness that would allow it to empirically test and exercise 
innovative improvements in operational military capabilities. Even 
though Joint Forces Command was disbanded and widely assessed as 
inefficient, we still need the ability to generate standing joint task 
force headquarters that can conduct realistic experimentation in and 
testing of innovative joint operating concepts. The Services have the 
technical capacity and resources to fully explore Service-centric 
operating concepts, but we lack commensurate capability to test new 
joint concepts with joint headquarters.
    In fact, the ability to optimize joint headquarters and operations 
has largely eluded us. It is stunning to realize that we were not even 
able to achieve unified command of all military forces in Afghanistan 
until 10 years of war had passed. Secretary Gates is forthright in 
acknowledging command relationships in Afghanistan were a ``jerry-
rigged arrangement [that] violated every principle of the unity of 
command.'' \11\ SOF and conventional forces had trouble coordinating 
their operations, and even within the SOF community, which ostensibly 
shares a common chain of command and considers unified effort a core 
organizational value, we could not achieve unified effort. Despite 
broad agreement among national security leaders, USSOCOM leaders and 
many individual SOF commanders that the indirect approach to 
counterinsurgency should take precedence over kill/capture operations, 
the opposite occurred. SOF units pursuing counterterrorism took 
precedence and often failed to sufficiently coordinate their efforts 
with other SOF units conducting counterinsurgency. It is apparent we 
need a much more aggressive effort to field truly joint task force 
headquarters and experiment with the same during peacetime.
---------------------------------------------------------------------------
    \11\ Robert M. Gates, Duty: Memoirs of a Secretary at War (New 
York: Knopf, 2014): 206.
---------------------------------------------------------------------------
        enabling unified effort in the national security system
    The national security system's inability to routinely integrate the 
efforts of diverse departments and agencies has long been recognized, 
but the impact of this limitation on successful military operations is 
less appreciated. For example, it is widely assumed that senior leaders 
are uniquely responsible for the unsatisfactory outcomes in Afghanistan 
and Iraq. When things go wrong it is natural to blame leaders, 
reasoning that things would have gone better if they had made better 
decisions. It also is understandable that poor outcomes are often 
linked to common decision- making errors such as flawed assumptions, 
improper analogies, tunnel vision, and cognitive dissonance. Almost by 
definition when things go badly, these types of limitations are in play 
to some extent. However, it is also important to acknowledge that 
leaders are not in complete control of outcomes and that they are 
constrained to make their decisions within an organizational and 
political system with behaviors they do not fully control. For these 
reasons, good outcomes are not always the result of great decision 
making, and bad outcomes are not always the result of flawed decision 
making. The war in Iraq is a case in point.
    A close examination of the historical record demonstrates that 
disunity of effort provides a better explanation for what went wrong in 
Iraq than the belief that senior leaders based their decisions on 
optimistic assumptions, made them without examining a sufficient range 
of options, or failed to adjust their decisions as circumstances 
changed. For example, many believe U.S. leaders made the ``heroic'' 
assumption that Iraqis would welcome U.S. forces with open arms and 
there would be no civil unrest in response to the overthrow of Saddam 
Hussein's regime. U.S. leaders were not so naive. They thought the 
majority Shiite population would welcome Saddam's ouster but the Sunnis 
much less so, and that in any case whatever welcome U.S. forces 
received would not last. Intelligence on Iraq predicted a ``short 
honeymoon period'' after deposing Saddam, and almost all decision-
makers in Defense, State, and the White House worried that an extended 
American occupation would be costly and irritate the local population. 
Most senior leaders preferred a ``light footprint'' approach in both 
Afghanistan and Iraq. As many commentators have noted, there were 
multiple planning efforts prior to the war by State, Defense, and other 
national security institutions that underscored how difficult the 
occupation might be. These insights found a ready audience in the Bush 
administration, which came to office disdaining extended nation-
building missions and warning that the U.S. military was ``most 
certainly not designed to build a civilian society.'' \12\
---------------------------------------------------------------------------
    \12\ Condoleezza Rice, ``Campaign 2000: Promoting the National 
Interest,'' Foreign Affairs, January/February 2000.
---------------------------------------------------------------------------
    Yet there were deep disagreements among senior leaders about how 
best and how fast to pass authority to the Iraqis while reducing U.S. 
presence. The Department of Defense preference was a short transition 
period for military forces with a quick turnover of authority to Iraqi 
expatriates. The Department of State, including Secretary Colin Powell 
(and later Ambassador Bremer), did not want an extended occupation of 
Iraq either. However, State believed it would be difficult to find 
others willing to take responsibility for the future of Iraq and that 
the United States would have to do so since it had engineered the war. 
State wanted the speed and scale of U.S. postwar activities 
commensurate with the U.S. interests at stake. It thought the quickest 
way out of Iraq was to make the maximum effort to stabilize it 
following the termination of large-scale fighting, which meant a large 
ground force for security, plenty of development assistance, and as 
much international support as could be mustered.
    The White House explicitly considered the U.S. obligation to Iraq 
after deposing Saddam Hussein. The President decided to give Iraqis a 
chance at democracy because he thought it was the right thing to do, 
albeit not a vital security interest for the United States. This 
decision meant State and DOD could not ignore the postwar mission but 
left plenty of wiggle room for disagreements about how the mission 
should be conducted. The two departments obliged. They disagreed over 
the importance of ensuring good governance in Afghanistan and Iraq, 
over the appropriate level of U.S. commitment to this mission, over how 
it should be carried out, and over which department would do what to 
execute postwar tasks. These disagreements should not have been a 
surprise; they had been a longstanding bone of contention between the 
two departments.
    Consistent with previous experience, President Bush did not resolve 
the differences. The President gave the lead for postwar planning to 
DOD to preserve ``unified effort.'' But he also promised Ambassador 
Bremer that he would have the authority and time he needed to stabilize 
Iraq (that is, to take the Department of State approach). As the 
situation deteriorated, State was increasingly adamant about security 
and DOD was increasingly adamant about early departure for U.S. forces. 
State increased its appeals for more troops, while Rumsfeld's generals 
told him counterinsurgency was an intelligence-dependent mission and 
that more troops would be counterproductive. When Ambassador Bremer 
worried the Department of Defense was setting him up to take 
responsibility for failure by pushing an accelerated schedule for 
turning over authority to the Iraqis, President Bush reiterated his 
promise to support more time and resources for Iraq. The NSC staff 
refereed the debates between State and DOD, looking for ways to effect 
compromises. The views of the two departments were not reconciled and 
the success of the postwar mission was compromised--not because of 
optimistic assumptions about Iraqi sentiments, but because differences 
between strong departments were not managed well.
    I believe our greatest, most persistent, most deleterious 
implementation problem in Afghanistan and Iraq was our inability to 
integrate the vast capabilities resident in the national system for 
best effect. Many blue-ribbon commissions and senior Department of 
Defense leaders agree. General Wayne Downing, a former four-star 
commander of the nation's special operations forces, argued after 9/11 
that, ``the interagency system has become so lethargic and 
dysfunctional that it materially inhibits the ability to apply the vast 
power of the U.S. government on problems,'' a fact made evident by 
``our operations in Iraq and in Afghanistan'' and elsewhere. \13\ 
Several Chairmen of the Joint Chiefs of Staff also are on record 
lamenting insufficient interagency cooperation, including General 
Richard Meyers \14\ and General Peter Pace. General Pace, after years 
of managing the military portion of the effort against Al-Qaeda, argued 
the enemy could not be defeated without better interagency cooperation. 
He bluntly concluded, ``We do not have a mechanism right now to make 
that happen.'' \15\ Pace and other senior military officers argued for 
legislation to force interagency cooperation much as the Goldwater 
Nichols legislation at the end of the 1980s forced joint cooperation 
among the military services. \16\
---------------------------------------------------------------------------
    \13\ Shanker, Thom, ``Study Is Said to Find Overlap in U.S. 
Counterterror Effort,'' New York Times, March 18, 2006.
    \14\ 2nd Annual C4ISR Summit, August 20, 2003, Danvers, 
Massachusetts, Selected Speeches, Testimony, Articles, October 2001-
September 2005, page 225.
    \15\ ``Pace Calls for Better Interagency Work,'' UPI, August 9, 
2007.
    \16\ Naler, Christopher L. Unity of Effort: An Interagency 
Combatant Command. Ft. Belvoir: Defense Technical Information Center, 
2005, 4. <http://handle.dtic.mil/100.2/ADA509122>.
---------------------------------------------------------------------------
    Recent Secretaries of Defense are also on record complaining that 
interagency mechanisms do not work well. Secretary Cohen called the 
interagency policymaking process in the late 1990s ``dysfunctional,'' 
and Secretary Rumsfeld made the same point, saying the endless and 
fruitless interagency meetings he participated in ``sucked the life'' 
out of senior officials. He told the 9/11 Commission that a legislative 
fix was needed. When Secretary Robert Gates replaced Secretary Rumsfeld 
he told Congress that:

        Nearly nine years under four Presidents on the National 
        Security Council staff taught me well about the importance of 
        interagency collaboration and cooperation. The U.S. clearly 
        needs a government-wide approach to the challenges we face 
        today and will face in the future. If confirmed, this type of 
        interagency collaboration and cooperation will be one of my 
        priorities. \17\

    \17\ United States. ``Advance Policy Questions for Dr. Robert M. 
Gates.'' Posed by the Senate Armed Services Committee. 5 December 2006. 
<http://media.washingtonpost.com/wp-srv/nation/documents/Gates--
Responses--Nov2006.pdf>
---------------------------------------------------------------------------
    Not long into his tenure as Secretary of Defense, however, 
Secretary Gates concluded wholesale reform of the national security 
system was needed to improve cross-organizational collaboration. \18\ 
He noted: ``The U.S. government has tried, incrementally, to modernize 
our posture and processes in order to improve interagency planning and 
cooperation mostly through a series of new directives, offices, 
coordinators, tsars, and various initiatives,'' and he concluded these 
half-measures were insufficient. \19\ Two years later he was even more 
emphatic, arguing that: ``America's interagency toolkit is a hodgepodge 
of jerry-rigged arrangements constrained by a dated and complex 
patchwork of authorities, persistent shortfalls in resources, and 
unwieldy processes.'' \20\ Michelle Flournoy, Secretary Gates' Under 
Secretary of Defense for policy matters later added an exclamation 
point to his concerns:
---------------------------------------------------------------------------
    \18\ Robert M. Gates. ``Landon Lecture'' (speech, Kansas State 
University, November 26, 2007), Department of Defense, http://
www.defense.gov/speeches/speech.aspx?speechid=1199.
    \19\ Remarks as Delivered by Secretary of Defense Robert M. Gates, 
Center for Strategic and International Studies (Washington, DC), 
Saturday, January 26, 2008.
    \20\ Robert M. Gates. Remarks at The Nixon Center, February 24, 
2010, available at www.nixoncenter.org/
index.cfm?action=showpage&page=2009-Robert-Gates-Transcript.

        To put it bluntly, we're trying to face 21st century threats 
        with national security processes and tools that were designed 
        for the Cold War--and with a bureaucracy that sometimes seems 
        to have been designed for the Byzantine Empire, which, you will 
        recall, didn't end well . . . .We're still too often rigid when 
        we need to be flexible, clumsy when we need to be agile, slow 
        when we need to be fast, focused on individual agency equities 
        when we need to be focused on the broader whole of government 
---------------------------------------------------------------------------
        mission. \21\

    \21\ Garamone, Jim. ``Flournoy Calls for Better Interagency 
Cooperation.'' American Forces Press Service. 11 June 2010. <http://
www.defense.gov/News/NewsArticle.aspx?ID=59601>.
---------------------------------------------------------------------------
    In other words, we have long recognized that insufficient unity of 
effort in the national security system is a major handicap for 
successful military operations, but we have been at a loss for how to 
correct this liability. My hope is that recent research from National 
Defense University can help point the way forward.
    Various senior leaders and studies increasingly argue for 
interagency groups that operate as teams (sometimes labeled as fusion 
cells, task forces, etc.). \22\ One problem with such recommendations 
is that they are short on details that explain how these constructs 
would differ from current interagency groups. For example, when the 
Project on National Security Reform recommended ``empowered'' 
interagency teams, it was able to cite only a few positive examples of 
such phenomena that were revealed by mass media or personal accounts 
from practitioners. To rectify this shortcoming, researchers at 
National Defense University made a point several years ago of producing 
in-depth studies of four rare but highly successful interagency teams: 
\23\
---------------------------------------------------------------------------
    \22\ The author is on record as a proponent of interagency teams. 
See ``Overcoming Interagency Problems.'' Prepared Statement of 
Christopher J. Lamb before the Terrorism, Unconventional Threats and 
Capabilities Subcommittee on Implementing the Global War on Terror, 
U.S. Congress, House Armed Services Committee, U.S. House of 
Representatives, March 15, 2006. Others have made the same 
recommendation. For example, see Project Horizon Progress Report, 
Washington D.C., Summer 2006.
    \23\ The cases studies are: ``Deception, Disinformation, and 
Strategic Communications: How One Interagency Group Made a Major 
Difference''; http://ndupress.ndu.edu/Portals/68/Documents/
stratperspective/inss/Strategic-Perspectives-11.pdf; ``Joint 
Interagency Task Force-South: The Best Known, Least Understood 
Interagency Success''; http://ndupress.ndu.edu/Portals/68/Documents/
stratperspective/inss/Strategic-Perspectives-5.pdf; ``The Bosnian Train 
and Equip Program: A Lesson in Interagency Integration of Hard and Soft 
Power''; http://ndupress.ndu.edu/Portals/68/Documents/stratperspective/
inss/Strategic-Perspectives-15.pdf; Post 2001: ``9/11, 
Counterterrorism, and the Senior Interagency Strategy Team: Interagency 
Small Group Performance in Strategy Formulation and Implementation''; 
http://thesimonscenter.org/wp-content/uploads/2014/04/IAS-003-
APRIL14.pdf; and ``Secret Weapon: High-value Target Teams as an 
Organizational Innovation''; http://ndupress.ndu.edu/Portals/68/
Documents/stratperspective/inss/Strategic-Perspectives-4.pdf.
---------------------------------------------------------------------------
    <bullet>  the Active Measures Working Group, which countered Soviet 
disinformation successfully for most of the 1980s and sent shock waves 
to the top of the Soviet political apparatus at virtually no cost to 
the United States;
    <bullet>  the Bosnia Train and Equip task force, which stabilized 
the military balance in Bosnia and helped secure the peace in the 
aftermath of vicious inter-ethnic fighting;
    <bullet>  the leadership group at Joint Interagency Task Force 
South, which runs an organization that accounts for more than 80 
percent of all federal, state and local government disruption of 
cocaine shipments;
    <bullet>  and the interagency High Value Targeting teams used by 
Special Operations Forces to put terrorists and insurgents on the 
defensive and set the stage in 2007 for the dramatic reversal of the 
security situation in Iraq.
    A careful comparison of the case studies reveals several 
prerequisites for success. Many interagency groups fail to perform well 
because representatives attending initial meetings begin to doubt that 
senior leaders care whether the effort succeeds or not. Evidence that 
senior leaders strongly support the group's mission is therefore a 
critical first prerequisite. The nature of the support senior leaders 
provide varied in the cases studied, but was sufficient to strongly 
suggest that both Congress and the Executive Branch leaders considered 
the missions assigned to the groups national priorities and wanted them 
pursued on an interagency basis. These preferences were communicated 
formally through directives and mandates, and informally through 
attention paid to the groups and their issues. Otherwise, the senior 
leaders generally allowed the groups great latitude, and did not 
provide a lot of overt intervention to smooth the way to success.
    After senior leader support, agreement on purpose seems to be the 
next most important precondition for success. The case studies suggest 
it is possible to start with a broad idea of the group's mission and 
then forge a more specific concept for execution as the group better 
understands the problems it is tackling. All four groups also benefited 
from access to required resources, although they were managed 
differently by each group. When senior leaders make a point of 
providing special resources for a group it reinforces and communicates 
their support. Not all missions require the same types or amounts of 
resources, however. For example, in the case of the group charged with 
countering Soviet disinformation, the primary resource required was 
information resident in multiple departments and agencies about Soviet 
activities and techniques. In the case of the U.S. program to arm and 
train Bosnian Federation forces, substantial amounts of cash and 
equipment were required.
    The next most important prerequisite for success was team 
leadership. Successful team leaders exhibited a propensity for taking 
charge, taking risk, and assuming responsibility for outcomes. They put 
mission success ahead of parent organization's preferences, which was 
risky bureaucratic behavior. Successful interagency team leaders all 
delegated substantial authority, trusted their subordinates and 
encouraged initiative. Interestingly, teams were able to produce great 
results with a mix of high performing and mainstream personnel from 
diverse departments and agencies and without an extraordinary reward 
system in place. Some enduring teams shifted from more mainstream 
membership to higher performers as time went by and recruiting new team 
members became easier. However, the ability of these teams to perform 
at a high level with the members initially assigned to them is 
noteworthy.
    It also is interesting that team members proved highly productive 
without tangible incentives. The vast majority of members on all the 
teams had no expectations of personal recognition or monetary rewards, 
either before or during their service. On the contrary, many assumed 
their careers would be put on hold or retarded by assignment to the 
teams. It was actually more important for team leaders to provide 
positive feedback to the departments and agencies providing the 
personnel than to the personnel themselves. This was true for all four 
teams, although some team leaders made of point of making their team 
members feel appreciated. What team members in all four cases did 
receive, however, were huge psychological dividends when it became 
clear they were making a difference on important missions. As a result, 
most members were devoted to their teams and motivated to work long 
hours--around the clock and seven days a week when circumstances 
demanded it.
    In addition, successful teams also required some unique structure. 
In particular, they greatly benefited from colocation and full-time 
focus on their missions. Small size was another common structural 
attribute. All the groups were between seven and fifteen persons (in 
the case of Joint Interagency Task Force South, the organization's 
leadership team was this size). However, all four teams aggressively 
pursued support from outside the team by engaging senior leaders, 
negotiating partnerships with other organizations, and monitoring 
entities conducting work on behalf of the teams. Even more important 
for high productivity, all four groups were structured for end-to-end 
mission management. This meant that within the scope of their mission 
they took responsibility for the entire sequence of functions required 
to achieve desired outcomes. If the group operated at the national 
level, as was true for the Reagan-era Active Measures Working Group and 
the Clinton-era Bosnia Train and Equip task force, end-to-end mission 
management meant taking responsibility for policy, strategy, plans, 
operations, assessments and adjustments to all components of the 
mission effort to ensure desired outcomes.
    The willingness to take responsibility for all activities necessary 
to produce results was critically dependent upon each group's 
leadership. Typically an interagency group conceives its mission in 
limited terms. At the national level, the strong inclination is to 
limit an interagency group to just a policy or planning exercise. At 
lower levels there is a tendency to limit a group's mission to whatever 
the lead or most powerful participant prefers to do. However, in the 
four success cases we studied, the team leaders accepted a broader 
``end-to-end'' mission concept that increased responsibility for actual 
results but also increased the risks of failure. In some cases, like 
the Bosnia Train and Equip task force, the need to produce results in 
the field was essentially part of the original mission statement. Even 
so, the task force embraced the intensely operational responsibility 
for results when they could have avoided doing so. In other cases, like 
the Active Measures Working Group and Joint Interagency Task Force 
South, the leaders dared to take responsibility for ``end-to-end'' 
mission performance when it was much less necessary.
    The ``end-to-end'' conceptualization of all four missions was 
critical for productivity. It encouraged responsibility and 
accountability. Once the groups established their lead role for all 
components of the mission, there were no acceptable excuses for poor 
performance. There were no other actors working a portion of the 
process that could be held responsible for failures. In such 
circumstances, only the inherent difficulty of the mission or 
inadequate group performance were likely explanations for poor results. 
In all four cases, the interagency groups rose to the challenge and 
held themselves accountable for demonstrable progress toward group 
objectives.
    The ``end-to-end'' approach adopted by the four groups did not mean 
they operated independently or that they did everything themselves. The 
groups received guidance. The groups had to work within the parameters 
established by higher authorities. Sometimes the scope of the group's 
activities was clear; other times it had to be discerned or explored. 
For example, the Active Measures Working Group determined that it had 
to concentrate on countering Soviet disinformation rather than taking 
on more aggressive active measures against the Soviet Union. This was a 
point of dispute in the group, but the leaders knew the more aggressive 
measures would collapse support for the group and decided to leave 
those efforts to a classified group working out of the National 
Security Council staff.
    The research identified other group attributes correlated with 
success, including the need to preserve good to great levels of trust 
and the ability to learn from experience, which includes leader support 
for innovation and a willingness to delegate responsibilities. However, 
the main point to be made here is that stellar interagency performance 
is possible even in our current system; it's just exceedingly uncommon. 
The reason for this is that the groups require special empowerment and 
must work around strong system impediments and disincentives. We would 
be much better served by a national security system that supports 
rather than thwarts such interagency collaboration.
    At first the prerequisites for success identified by our research 
might seem mundane. Most people would assume that a team requires 
adequate authority and resources to perform its mission well, \24\ and 
that having senior leaders assign a small group a clear mission, a 
capable leader and necessary resources meet those requirements. 
However, it is important to note that the groups did not have the 
directive authority that some observers believe is essential for high-
performing interagency groups. \25\ They were able to use the senior 
leader support they received to encourage collaboration across 
departments and agencies, and once they had a collaborative effort 
under way, the legal authorities resident in multiple departments and 
agencies were sufficient to accomplish their missions. Having directive 
authority would make it easier to field and sustain high performing 
interagency teams, but the case studies suggest it is not a necessary 
precondition for success when other support is in place.
---------------------------------------------------------------------------
    \24\ Bradley L. Kirkman and Benson Rosen, ``Antecedents and 
Consequences of Team Empowerment,'' The Academy of Management Journal 
42 no. 1 (Feb., 1999), 58-74.
    \25\ Seidman notes ``many believe that [interagency committees] are 
fatally flawed because there is no provision for a central directive 
authority'' that could compel involuntary cooperation. Seidman, Harold. 
Politics, Position, and Power: The Dynamics of Federal Organization. 
New York: Oxford University Press, 1980: 219, 224.
---------------------------------------------------------------------------
    In addition, we need to recognize how rare it is for interagency 
groups to have a clear purpose and adequate resources to accomplish 
their missions in the current national security system. Most 
interagency small groups are assigned broad missions without a clear 
focus. It has long been argued that it is much more difficult for 
standing interagency committees with general responsibilities for 
coordination to perform effectively, in contrast to interagency groups 
that are organized to pursue a more limited objective and that ``go out 
of business once their assigned task if accomplished.'' \26\ Joint 
Interagency Task Force South, which manages the counternarcotics 
mission on a continuing basis, belies the notion that standing 
interagency groups cannot perform well. However, it does seem from the 
four cases researched that a well-defined mission and group consensus 
on what is being accomplished are critically important to team 
performance.
---------------------------------------------------------------------------
    \26\ Seidman argues ``standing interagency committees with 
responsibility to coordinate in general (emphasis in original)'' 
perform much less well than ``ad hoc interagency groups organized to 
study and report on specific problems.'' Harold Seidman, 
``Coordination: The Search for the Philosopher's Stone,'' in Harold 
Seidman and Robert S. Gilmour. Politics, Position, and Power: The 
Dynamics of Federal Organization, 5th ed., (Oxford University Press: 
New York, 1980): 217.
---------------------------------------------------------------------------
    Normally interagency groups also lack the resources necessary to 
accomplish their missions. Because of the way government is structured 
and resourced, it is common to approve interagency strategies without 
providing the resources essential for success. The participating 
departments and agencies are expected to provide the resources 
voluntarily. In the national security system, other departments and 
agencies frequently look to the large Department of Defense to pick up 
the tab for new initiatives, and it typically resists. The tendency to 
assign missions without identifying commensurate resources for the 
group means many interagency small group efforts are doomed to 
fruitless bickering over which organization will pay, or to a loose 
coordination effort since every organization naturally demands control 
over any resources it contributes.
    It is even rarer for interagency small groups in the national 
security system to own an entire mission area as opposed to being 
assigned just one segment of the enterprise; for example, establishing 
policy; making plans; and executing some portion of the required 
operations. Rarely does an interagency group manage its mission ``end-
to-end'' as was true for the four cases studied. Members of the four 
successful groups believed mission focus and comprehensive 
responsibility for the mission were keys to success. Groups with a more 
diverse set of responsibilities that dilute the group's focus, and 
groups that are responsible for only one segment of a mission chain 
find it much more difficult to achieve success.
    In the current system most small groups operate without directive 
authority. Instead, they are based on the voluntary cooperation of the 
departments and agencies that staff them. In cases where simple 
information sharing is all that is necessary or desired, interagency 
small groups can succeed. If active cooperation or a high performing 
team is necessary, then interagency groups needs assistance to escape 
the centrifugal forces that pull them apart and incline their members 
to protect their parent organizations' equities rather than give 
priority to the group's mission. Assuming our case studies are a good 
representation of system tendencies, senior leaders who want an 
interagency small group to succeed need to set it up for success by:
    1)  Communicating the group's mission clearly, the priority they 
attach to it and the fact that it can only be undertaken on an 
interagency basis;
    2)  Providing the group resources as required by the mission;
    3)  Finding a leader committed to the mission who is willing to 
buck his own parent organization's predilections;
    4)  Permitting the group to collocate and work the problem full-
time if the mission's level of difficulty demands it; and
    5)  Allowing the leader and his or her team the latitude to manage 
their problem ``end-to-end,'' or from strategy to its execution and 
assessment, so that the group effectively controls all aspects of the 
solution chain.
    It helps if Congress supports the Executive Branch on the first two 
points. In taking these steps it also helps if senior leaders provide 
tangible evidence of the importance they attach to the interagency 
group's mission. Implicit in these conditions is the recognition by all 
parties (senior leadership, parent organizations and the team leader 
and members) that mission success takes priority over protecting 
department and agency preferences. If the group is established with the 
opposite expectation it will not be able to solve a complex problem 
\27\ and the wisdom of allocating scarce resources (human and materiel) 
to the effort probably needs to be reevaluated.
---------------------------------------------------------------------------
    \27\ This is a lesson from a case study of the Senior Interagency 
Strategy Team at the National Counterterrorism Center, which turned out 
to have some major performance problems. Christopher Lamb and Lt Col 
Erin Staine-Pyne, ``9/11, Counterterrorism, and the Senior Interagency 
Strategy Team: Interagency Small Group Performance in Strategy 
Formulation and Implementation,'' Col. Arthur D. Simons Center for the 
Study of Interagency Cooperation, Ft. Leavenworth, March 2014.
---------------------------------------------------------------------------
    High-level political support cleared the way for the four groups we 
investigated to function, but did not guarantee their success. The 
team's leader and members must exploit the opportunity they have been 
given by forging a consensus on how to accomplish their assigned 
purpose. They need to:
    1)  Define the group's purpose with an ``end-to-end'' 
conceptualization of the problem and solution, taking responsibility 
for all activities necessary to achieve results;
    2)  Pursue an open if not collaborative decision making process;
    3)  Partner aggressively with other entities to manage each segment 
of the end-to-end solution chain;
    4)  Establish and maintain trust among group members; and
    5)   Learn from experience and adjust accordingly to manage the 
assigned problem well.
    Although our case studies demonstrate that interagency 
collaboration is possible in the current system, they also suggest why 
it is an uncommon and fragile commodity. Successful interagency groups 
require national leaders, group leaders and teams that are willing to 
challenge the structure, decision-making norms, culture and incentives 
of the current national security system. This is seldom the case, which 
is why high performing interagency small groups are rare, and even when 
they do occur, are prone to breakdown and atrophy.
    Ironically, the President will need more help from Congress to 
generate these kinds of interagency teams than the Secretary of Defense 
would need for producing cross-functional teams in the Department of 
Defense. One reason for this is that the authorities of the President's 
cabinet members are well-established in law and not easily overridden 
except by direct personal intervention by the President. This point was 
illustrated by the Department of Defense shortly after 9/11. The 
Department cited current law on the chain of command for our armed 
forces to argue Defense had to be put in charge of everything involving 
Iraq. ``No one else could take charge of security, because no one else 
had the legal authority to command our armed forces.'' Thus, Defense 
argued, if the President wanted ``unity of leadership'' and ``unity of 
effort'' he would have to put the Secretary of Defense in charge of 
everything involving Iraq. \28\ Defense thought this argument was 
conclusive and it apparently convinced the President. However, the 
actual result of making Defense the lead agency for Iraq was less 
unified effort.
---------------------------------------------------------------------------
    \28\ Douglas J. Feith, War and Decision: Inside the Pentagon at the 
Dawn of the War on Terrorism (New York: Harper, 2008): p. 316.
---------------------------------------------------------------------------
    Legislation allowing the president to appoint leaders, or what some 
call ``mission managers,'' to run interagency teams is also probably a 
legal requirement. Gordon Lederman, the former leader of the Project on 
National Security Reform's Legal Working Group, argues that, ``Any 
individual in the interagency space who exercises meaningful authority 
to compel departments to act'' would have to be an ``officer of the 
United States,'' and officers of the United States must have their 
positions established by statute as required by the Appointments Clause 
of the Constitution. Codifying mission manager authorities in statute 
would also help secure resources for the President's priority 
interagency missions: ``The President may create structures and 
processes and fund them temporarily by transferring resources, but 
ultimately it is Congress that provides resources on a sustained basis. 
Without Congress's input and resources, a presidentially-imposed 
solution to interagency integration may wither for lack of funding.'' 
\29\ Thus, the legislation allowing the president to delegate his 
integration authorities should also include a mechanism for funding 
interagency team activities and provide for associated congressional 
oversight.
---------------------------------------------------------------------------
    \29\ Gordon Lederman, ``National Security Reform for the Twenty-
first Century: A New National Security Act and Reflections on 
Legislation's Role in Organizational Change,'' Journal of National 
Security Law and Policy, vol. 3 (2009), 363ff. See also Christopher 
Lamb and Edward Marks, ``Chief of Mission Authority as a Model for 
National Security Integration,'' Strategic Perspectives, Institute for 
National Strategic Studies, National Defense University, December 2010, 
p. 10.
---------------------------------------------------------------------------
    In addition to legislation, it would be important to structure and 
lead the teams well. The Project on National Security Reform has 
proposed some baseline standards for such groups that would be a good 
place to begin. If such teams were empowered and structured to emulate 
the attributes of teams that have performed well in the past, the 
President would find them useful. Empowered teams would produce better 
strategy because they would be less susceptible to the bureaucratic and 
political pressures that militate against strategy formulation. \30\ 
They also would execute strategy with much greater unity of effort. 
Hence they would be more effective, and the President would be inclined 
to use them more frequently. Their use would then proliferate, which 
would create the need for some complementary reforms in the National 
Security Council staff.
---------------------------------------------------------------------------
    \30\ The bureaucratic and political pressures that militate against 
strategy are discussed at length in ``Pentagon Strategies,'' and 
``National-Level Coordination and Implementation,'' op. cit.
---------------------------------------------------------------------------
    As the use of interagency teams increases, the need to de-conflict 
their efforts will grow. Such teams tend to pursue their objectives 
with great determination and without regard for work in adjacent or 
overlapping strategic challenges. The good news is that the National 
Security Council staff, freed from intense issue management, could then 
pay more attention to system management and better de-conflict the work 
of the interagency teams. It also would be important to ensure such 
teams were not assigned inappropriate problems to solve; i.e. ones that 
are not inherently cross-functional. If the teams encroached on issue 
areas that are predominantly the responsibility of one department or 
agency, there would be much greater substantive and political 
resistance to their use.
    Ultimately, these developments would move us in the direction of a 
new model for the National Security Advisor and staff. Contrary to 
conventional wisdom, the choice is not merely between an ``honest 
broker,'' and ``a commanding intellect,'' or some combination thereof. 
What the President needs is a ``system manager'' with responsibility 
for making the national security system better serve presidential 
intent. The Project on National Security Reform has made a detailed 
case for how such a revised national security staff should work. \31\
---------------------------------------------------------------------------
    \31\ Forging a New Shield. Arlington, VA: Center for the Study of 
the Presidency, Project on National Security Reform, 2008; available 
at: http://0183896.netsolhost.com/site/wp-content/uploads/2011/12/
pnsr--forging--a--new--shield--report.pdf.
---------------------------------------------------------------------------
                               conclusion
    In my estimation our historic unpreparedness for irregular 
conflict, our inability to rationally allocate defense resources to 
priority military capabilities and missions, and the lack of unified 
effort among our departments and agencies are major impediments to 
improving military effectiveness. Fixing these problems will be as 
difficult as it is necessary. Not fixing them means we will continue to 
be vulnerable to irregular threat in an age where small groups have the 
intent and increasingly the capability to execute catastrophic 
terrorist attacks; that potential adversaries will be much more likely 
to close the gap on our advantages in major combat operations; and that 
future national security missions will experience the same frustrating 
lack of unified purpose and effort that has handicapped and in some 
cases crippled us in the past.
    For all these reasons I am encouraged and appreciative of the 
Senate Armed Services Committee's decision to thoroughly investigate 
Pentagon performance issues. Congress has intervened to improve 
military capabilities in the past, and done so to very good effect when 
it has developed a deep understanding of the underlying causes of 
performance problems. The Committee's thorough, bipartisan approach to 
identifying the root causes of behaviors that limit military 
performance is altogether laudatory and a great encouragement to those 
of us who work on defense matters. I wish you every success and would 
like to again express my appreciation for the opportunity to share my 
thoughts on this vital subject.Christopher Lamb with Megan Franco, 
``National-Level Coordination and Implementation: How System Attributes 
Trumped Leadership,'' in Richard D. Hooker, Jr., and Joseph J. Collins, 
Hooker and Joseph Collins, eds., Lessons Encountered: Learning from the 
Long War, National Defense University Press, 2015.

    Chairman McCain. Thank you very much, Doctor.
    Let us start out with a fairly easy one. Is there a reason 
why we should have a NORTHCOM and a SOUTHCOM? And is there a 
reason for us to have an AFRICOM that is based in Germany right 
next to your old command, Admiral Stavridis? And let me add 
onto that question. Is there not now a need, as much as we are 
trying to reduce and streamline--is there not now a need for a 
Cyber Command, given the nature of that threat? I will begin 
with you, General.
    General Schwartz. Sir, the original thinking on NORTHCOM 
was concern about having assigned forces to a senior officer 
with responsibility for the U.S., the domestic circumstances. 
That notion foreclosed at the time the possibility of having a 
joint command for both North and South America. It is time now 
with the passage of time to consolidate both of those 
organizations, as Admiral Stavridis suggested.
    The rationale for AFRICOM was somewhat different. As you 
will recall, there was actually an effort to place AFRICOM on 
the African continent.
    Chairman McCain. That did not turn out too well.
    General Schwartz. It did not. But you can appreciate how 
that thought process sort of preempted other considerations at 
the time. But again, with the passage of time, that is an act 
of consolidation that certainly makes sense to me.
    And with respect to CYBERCOM [U.S. Cyber Command], yes. 
Once they have assigned forces, it is time to establish 
CYBERCOM as an independent COCOM.
    Chairman McCain. Admiral?
    Admiral Stavridis. Sir, I think we absolutely should merge 
NORTHCOM and SOUTHCOM, not only for the efficiencies, but I 
think there are cultural connections that are important to get 
Canada and Mexico, two of the largest economies in the 
Americas, into the flow with our work and our world to the 
south. Predictably, there will be some objections based on 
NORAD [North American Aerospace Defense Command]. I think that 
can be easily handled with a subunified command in some way.
    AFRICOM was a good experiment, but I think it is time to 
admit merging it back together. The forces, as you said, are 
all in Europe. And I think those connections between Europe and 
Africa actually would be very positive and in some sense well 
received in the African world.
    And then Cyber Command I have already addressed. I think it 
is absolutely time to do it. The real question we should be 
considering, do we want to go one step further to a cyber 
force?
    Chairman McCain. That is really important. Thank you.
    Doctor?
    Dr. Lamb. I would not have strong feelings on the span of 
control we assign to the combatant commands, but I would make 
the following observation. I think that decision is probably 
best linked to other recommendations that have been made here 
today, including whether we increase and beef up our ability to 
field joint task forces, standing joint task forces, whether we 
have a general staff, or we have the Chairman in the chain of 
command. I think that would impact a lot the effective span of 
control the combatant commanders could exercise.
    Chairman McCain. Thank you.
    And this whole issue of the joint task forces I think is 
one of the most important aspects of it, obviously, since there 
is now a gap between the organizations in being and the 
appointment in every crisis of a joint task force, whether it 
comes from that command or from others. It is obvious that is 
where the operations are.
    Finally, in a more philosophical plane here, one of the 
much criticized but yet pretty successful staff structure has 
been the German general staff, names like Schlieffen and 
Ludendorff and others, as well as Keitel and others. And every 
time we start talking about centralizing authority in the 
Chairman of the Joint Chiefs of Staff, that issue is raised. 
The German general staff system is not something that we want 
to emulate, and yet, there are others who say that it was not 
because of the staff system that they lost, it was for other 
reasons.
    So give me more of a fundamental view. Do you want to 
centralize this much power in the hands of one individual or 
authority in the hands of this one individual? General?
    General Schwartz. Mr. Chairman, I would not create a 
general staff. I actually believe that there is risk of having 
the brilliant few become self-serving. However, it is not 
necessary that a Chairman in the chain of command connect to a 
general staff. By retaining a similar arrangement as we have 
now, where the Joint Staff is a creature of the Joint Chiefs, 
you minimize concern about a rogue individual.
    Admiral Stavridis. I would at least have a robust 
discussion about the pros and cons of a general staff, in 
addition to placing the Chairman atop it operationally.
    In terms of the concerns raised about the German general 
staff, you know, that rattles old ghosts in our memories, but 
at the end of the day, it was political leadership and economic 
collapse in Germany that led to the rise of fascism. The German 
general staff was perhaps a tool of that.
    I think here in the United States, the culture in the 
military is so strongly one of subservience to civilian 
leadership that I would not believe that to be a significant 
concern when weighed against the efficiencies that could be 
derived from such a structure.
    Dr. Lamb. I would just second what Admiral Stavridis said 
about there not being a threat to civilian control of the 
military from a general staff. But I do think it is worthwhile 
for the committee to ask or take up an issue that Michele 
Flournoy raised earlier in the week about the tyranny of 
consensus. Even compared to OSD, the Joint Staff is well known 
for its extensive coordination to ensure consensus on positions 
that are forwarded to the Chairman. And I think it would be 
very interesting to hear from former Chairmen or the current 
Chairman what they think of their staff's performance in that 
regard and for the committee to get to the heart of why 
consensus tends to rule in the way the Joint Staff operates and 
runs. I think it has not served us particularly well or the 
Chairman particularly well to date.
    Chairman McCain. Well, I just would finally make a comment, 
and that is that being a student of World War II, they did not 
have any of all this stuff. There were just some very brilliant 
guys named Marshall and Leahy and King and others that won the 
most seminal war probably of modern times. So I do not know how 
we look at that aspect of it, but it certainly was the major 
factor in winning World War II.
    Senator Reed?
    Senator Reed. Thank you, Mr. Chairman.
    And thank you, gentlemen, for your very, very thoughtful 
testimony.
    Two issues are emerging, among many. One is putting the 
Chairman in the chain of command, and two, creating a general 
staff. And there are pros and cons, as Admiral Stavridis 
pointed out. And since you gentlemen are some of the most 
intellectually honest people I know, it helps us--we get the 
pros a lot. What is the con? What do you worry about, General 
Schwartz? If we had a Chairman in the chain of command--if we 
did it, we would have to create sort of a buffer against those 
downsides. So both you and Admiral Stavridis, please, and Dr. 
Lamb.
    General Schwartz. The traditional thinking of having the 
Chairman in the chain of command is potentials for abuse, for 
excessive exercise of one's authority, and undermining, as 
Chris Lamb mentioned, the fundamental principle of civilian 
authority. That is the downside.
    But I believe that--and given my experience--the Chairman 
and the Secretary operate so closely in today's environment 
that there is a level of supervision which mitigates that 
possibility. But that is a legitimate consideration.
    Senator Reed. Let me follow up with a question. Even in 
your concept of putting the Chairman in the chain, he would be 
still subordinate to the Secretary of the Defense.
    General Schwartz. Of course, exactly. Correct.
    Senator Reed. The practical effect would be injecting him 
between the service chiefs and service secretaries? What is the 
practical effect?
    General Schwartz. The practical effect is that there is an 
authoritative referee in uniform. At the moment, that 
authoritative referee is either the Deputy Secretary or the 
Secretary. And it seems to me that having someone in uniform 
with executive authority, properly supervised contributes to 
effective activity.
    Senator Reed. Admiral Stavridis, your points on both these 
issues, the general staff, standalone general staff, and the 
Chairman in the chain.
    Admiral Stavridis. Sir, let me take the Chairman position 
first. We have identified and already correctly identified one 
of the cons. I will give you another one. It is having put that 
much power and authority into one person, what if you get an 
extremely mediocre Chairman, someone who is not smart, not 
effective? We have a very good up and out system. We are 
probably going to get a very good Chairman. But that level of 
power and authority--you need to worry not only about abuse of 
power but lack of capability in it as well.
    In terms of the general staff, I think a con would be that 
a general staff, because the officers would have been plucked 
out of their services at the 04/05 level in their late 30's, 
they would not have the robust level of operational experience 
that we see on the Joint Staff today. That would be a con. 
Again, my intuition is that in both cases the pros would 
outweigh the cons, but that would be part of the conversation, 
looking at both sides.
    Senator Reed. Dr. Lamb, your comments.
    Dr. Lamb. First, with respect to the Chairman in the chain 
of command, I think I would agree with General Schwartz that in 
the past the relationship between the Chairman and the 
Secretary has been extremely tight. And so I am not sure what 
the value added in inserting someone formally into the chain of 
command is. There are issues there. Some Chairman and Secretary 
teams have worked very closely, and the Secretary's interests 
and decisions have been passed through the Chairman. And in 
other cases, you can think of Secretaries who have dealt 
directly with the combatant commanders at length. So I think I 
would be kind of agnostic on that, but I am generally inclined 
to believe there is not a lot of value added to that.
    The more important decisions that I think the Chairman 
needs to work on are future force development. This is where we 
really have to work hard to preserve the qualitative advantages 
that we currently enjoy and which I think most people agree are 
diminishing. And there, to get to the issue of the general 
staff, I think he needs really dedicated, deep expertise on his 
staff, and currently we tend not to have that. We bring people 
directly in from operational commands who have never worked 
those broad issues before. We throw them at a problem for a 
couple years, then rotate them out. My view would be that more 
stability like a general staff would bring to the Chairman 
would probably be a good thing on the whole.
    Senator Reed. Thank you very much. Gentlemen, thank you for 
your service and for your testimony.
    Chairman McCain. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chair.
    Thank you, gentlemen, for joining us today. It is nice to 
have you here. Some interesting comments.
    Admiral and Dr. Lamb, if you would please. In 2009, in 
relation to the DOD, former DOD Secretary Bob Gates said this 
is a Department that principally plans for war. It is not 
organized to wage war, and that is what I am trying to fix. 
Again, that was from Bob Gates.
    And from both of you, please, do you believe that it can be 
fixed within the Department? And if so, if you could share your 
thoughts on that. Yes, please. General, go ahead.
    General Schwartz. I agree that the model for employment--
once again, I would try to reemphasize my earlier point, that 
we have migrated perhaps more by chance than by design, but the 
joint task forces are the way we operate today. And it seems to 
me that professionalizing those entities in the same way that 
we have grown the special operations national joint task force 
is the model for the future in the other operating domains.
    Senator Ernst. Thank you.
    Admiral Stavridis. I agree with General Schwartz as a 
general position. I think we should make the point that the 
Department of Defense today operates very effectively in a 
number of venues, but we could be better and more efficient if 
we had a model like General Schwartz is suggesting in my view.
    Dr. Lamb. I really appreciate the question. I am personally 
fascinated by Secretary Gates and his tenure as Secretary of 
Defense. I think he is a remarkable man, and he has been very 
candid in his memoirs about the experience he had leading the 
Department of Defense at a time of war. And I have looked at 
what he had to say very carefully, and I think it is 
interesting.
    And what really seemed to frustrate him was that even 
though we had troops on the battlefield in contact with the 
enemy, the service chiefs were called to their statutory 
obligation to raise, train, and equip the force of the future, 
and he could not get enough capability in the field for the 
problem we were currently trying to master. And this was a 
source of great frustration to the Secretary, and I think it 
underlies the comment that you just quoted him on.
    But for me, the problem there was in part our lack of 
preparedness for irregular warfare. The services, whether we 
are talking about preparing for future irregular conflicts or 
we are engaged in them currently, have always given priority to 
what they consider their core responsibility of fighting and 
winning the Nation's large-scale force-on-force conflicts. We 
have never been very good at being prepared for irregular war, 
and I think that is true over the last 60 years.
    So I think we do need some changes there. But for me, the 
solution there is to put someone definitively in charge of 
being prepared for irregular conflict. That is something we 
have not done. We always turn to all the services and say you 
are all equally responsible for being prepared for irregular 
conflict, and they invariably consider a lesser included case. 
So we do not go to those conflicts thinking about them, 
planning for them, prepared for them with the niche 
capabilities, et cetera. I think that is what frustrated the 
Secretary, and I think it can and should be fixed.
    Senator Ernst. Yes, and there were a lot of very 
provocative comments that the Secretary has made, and that is 
good because now we are spending the time talking about some of 
those reforms and thoughts that he had in regards to irregular 
warfare, asymmetrical warfare. We really did not start 
talking--at least I was not so much aware of it until about 15 
years ago or so when we really started taking a look at our 
force.
    But how can we empower those combatant commanders to take 
that prudent risk and make those decisions on their own? Do we 
empower them to do that, or how can we empower them to do that? 
Any thoughts? Or does it need to be a top-down approach? Why 
can it not be a more bottom-up approach in taking some of those 
risks? General?
    General Schwartz. I think thoughtful combatant commanders 
like Jim Stavridis did exactly that. However, it is important 
to assign missions and to distinguished what the priorities 
are. That is a function of the Pentagon in this town. And we 
have not been terribly good at that.
    Senator Ernst. We have not. Thank you, General.
    Chairman McCain. Senator Manchin?
    Senator Manchin. Thank you, Mr. Chairman.
    And thank all of you for your service.
    And I am going to direct these to General Schwartz and 
Admiral Stavridis.
    I am so appreciative of you all coming and so candid with 
us and tell us exactly what you have seen and what your 
experience. The hard thing I am having a hard time with, why 
either you cannot make these changes when you are in that 
command, when you are on the front line, when you are in 
charge. Is the system bogged down to where we are throwing so 
much stuff at you from here to the intermediators that is 
coming to us? But also, how do we keep the separation of the 
civilian oversight, as we do, which is unbelievable, and I am 
glad we do. And that is the concern we might have, the balance.
    But you know, when you have--the 2010 report by McKinsey 
and Company found that less than 25 percent, or one-quarter, of 
active duty troops were in combat roles, with the majority 
instead performing overhead activities. And if you look at it 
from the standpoint of all the pay increases, we are giving the 
same pay increases to 75 percent of the people who do not see 
any action. I think we need to know from you now in your role, 
not being constrained in your remarks, how do we get to where 
you are able to make the decision when you are in charge and in 
power. They are saying they cannot be made. The military cannot 
change. Under the Goldwater Act that we had way back when, that 
only we can force it from here. But yet, we have thrown so many 
regulations and so many oversights, that it makes it impossible 
to govern. Where is the intermediate? Who makes that decision? 
Is there a commission that should be in place?
    And for those who are concerned about giving total power to 
the Joint Chiefs and the Chairman, still having the civilians 
in the control in an advisory capacity--I do not know how to 
circumnavigate this.
    And the final question you all two can answer. I know that 
we are talking about NORTHCOM and SOUTHCOM. I would ask the 
same question about National Guard and Reserves. I as a 
Governor, former Governor. I was over my Guard. And I would 
have gladly shared with the President, and if the only reason 
we have the Reserves doing what they are doing and the Guard 
doing what they are doing is because of separation of 
oversight, it does not make any sense to me. We could save a 
tremendous amount and use our Guard and Reserves in a much 
more, I think, effective role and much more cost-effective. But 
I do not see that happening either.
    So whoever wants to chime in, please do.
    General Schwartz. Thank you.
    I actually believe that giving the Chairman, hopefully a 
very capable individual, directive authority, executive 
authority would change the dynamic in what you are saying.
    Senator Manchin. And right now, you are saying that that 
person does not have that.
    General Schwartz. At the moment, he does not have that. He 
can encourage. He can persuade, but he cannot compel. And that 
is not a business-like approach to the problem.
    Secondly, with regard to the Guard and Reserve, it is at 
least in part a function of the statutory authority, as you are 
aware being a former Governor and others here on the dais. The 
Reserve is a Title 10 entity which is responsive to the service 
leadership, and the Guard, of course, is Title 32 and a little 
more complex arrangement. And I think it is safe to say that at 
least the Army and the Air Force have a preference for 
maintaining both of those entities because access to the 
Reserve is cleaner and more expeditious in most cases than it 
is in some cases with the Guard.
    Senator Manchin. Admiral?
    Admiral Stavridis. A couple of thoughts, sir. You do touch 
on, I think, an important aspect of all this, which is 
reforming pay, benefits. I think those authorities derive from 
all of you here on Capitol Hill based on proposals that can 
come, and I think you are spot-on to look at why do we pay an 
03 essentially exactly the same amount of money.
    Senator Manchin. Right.
    Admiral Stavridis. It really is in my view ripe for a new 
look. You could drive it from here, but I think in the 
building, they have the authority to build that into proposals 
and move it forward. And I hope you spur them to do it.
    In terms of authorities to really make changes, I think 
providing the SecDef more authority to go into government and 
move civilians that have been there, simple authorities over 
the GS system I think would be helpful in creating 
efficiencies.
    In terms of the Guard and Reserve, to the degree the 
committee wants to really lick your finger, reach up, and touch 
the third rail, you could look at an alternative model in the 
maritime world. We have an Air Guard and a land Guard, if you 
will, but we have a Coast Guard. The Coast Guard resides, as 
you all well know, in the Department of Homeland Security. It 
is a very different model. If you want to look at efficiencies 
and structures, that might be an interesting model to look at 
as to whether it pertains in the air and on the land, as it 
seems to work quite effectively in my view at sea.
    So these are huge questions. In terms of do you need a 
commission, I would say what this committee is doing right now 
is the basis of driving these thoughts forward, and I hope you 
continue at this.
    Senator Manchin. Thank you, sir.
    Chairman McCain. Senator Fischer?
    Senator Fischer. Thank you, Mr. Chairman.
    Gentlemen, recently a friend and I have been having 
discussions on a 1984 speech by Caspar Weinberger, which of 
course became known as the Weinberger Doctrine. And the third 
rule that he laid out would be that military forces should only 
be committed after the military and political objectives have 
been clearly defined.
    There has been criticism lately because of recent campaigns 
that we have seen in Afghanistan and Syria, criticisms that 
perhaps we have not seen that end result, that end state really 
clearly defined. I think in future conflicts, especially when 
we look at the cyber area, it is going to be difficult. It is 
going to be a challenge there to be able to define what is 
ahead.
    I guess I would like to hear from all of you, if you 
believe these evolving trends are going to change, how we look 
at laying out those objectives in the future, and are we going 
to be able to look at a comprehensive strategy and 
comprehensive plan for the future? Or are we going to have to 
look at it more incrementally as we move forward, and what are 
the risks that would be involved with that? If I could start 
with you, General.
    General Schwartz. As I see it, ma?am, the role of civilian 
leadership is to decide the why and the where, and the role of 
the uniforms is to offer advice on the how. Both are essential 
ingredients of success. And the desire for clarity in the why 
and the where is important to those who serve in uniform, 
without a doubt.
    I think the clear thing here is that there is a need for 
understanding that these are complex circumstances, but it is 
important for there to be support for the mission.
    And if I may offer an unsolicited piece of advice, the 
absence of an authorization for use of military force in the 
current setting is less than ideal.
    Admiral Stavridis. I agree with General Schwartz. Clearly, 
ideally the ideal structure, Senator, would be crisp, clear 
direction from the political level, a coherent strategy that 
has been explained to the American people and has a reasonable 
level of support in our democracy. Then the military conducts 
the detailed planning, which really is the precision piece of 
this going forward. How to make that link more effective--I 
think a lot of what we are discussing today would be helpful in 
that regard. And the degree to which that our military can be 
given that kind of strategic clarity will be the degree to 
which we are successful in our engagements overseas.
    Senator Fischer. So would you both say that that is a rule 
that we as Members of the Senate should continue to require to 
limit risk even into a future where the nature of warfare may 
change?
    Admiral Stavridis. Yes.
    Senator Fischer. And, Dr. Lamb, if you had comments, 
please.
    Dr. Lamb. Yes. One of the jobs I had in the Pentagon was 
helping prepare the contingency planning guidance and the 
defense planning guidance and overseeing the Nation's war plans 
for the Under Secretary of Defense for Policy. And one of my 
observations was that the operational plans were crystal clear 
compared to the strategic guidance that we often are able to 
promulgate. And I know that some of your previous witnesses 
have talked about strategy from the point of view of the need 
for more gray matter, greater strategists, better strategists, 
et cetera.
    My view is a little bit different. I think there are 
political and bureaucratic forces at work that tend to militate 
against strategy. You ask why do we not have a clear end state. 
Why do we not have a clear center of gravity? Why do we not 
marshal our resources against that center of gravity, et 
cetera? I think the answer is twofold.
    First of all, in formulating a strategy with that kind of 
clarity, right now there are great political and even 
bureaucratic disincentives for that kind of clarity. So if you 
say there are three ways to attack this problem and we are 
going to choose door B, so to speak, someone will always 
criticize you for not having taken option A or option C. So the 
safer thing to do is to say we are going to do all those 
things. So in the war on terrorism, we are going to emphasize 
strategic communications and we are going to go after the 
terrorists themselves and we are going to dissuade state 
sponsors, and on and on and on. So if you look at all of our 
public strategy documents, they are just long laundry lists of 
objectives, and you do not have that clarity.
    And then when it comes to implementing the strategy, you 
similarly have bureaucratic forces at play. I am firmly 
convinced, after a year of study, that a lot of popular opinion 
about what went wrong in Iraq is in fact wrong. Because of the 
point we just made about formulating strategy, if you have real 
strategy, it really exists not on paper but in the minds of the 
key decision-makers because they cannot promulgate the strategy 
for the reasons I just mentioned. So it is in their minds. So 
if you are going to get a clear, cohesive implementation of the 
strategy, everybody has to be working together and have a mind-
meld, if you will.
    That did not happen in Iraq, and we could go into detail on 
why that did not happen. But the point is we had people in one 
part of our national security system working very hard to go in 
one direction and people on the ground in Baghdad supported by 
other people trying to go in a different direction. And the 
results were not good.
    So when it comes to strategy, I think we have political and 
bureaucratic problems. And it is one reason I favor these 
cross-functional teams. I think they can put the strategy 
together and have a better chance of implementing it in a 
cohesive and a unified way.
    Senator Fischer. Thank you.
    Chairman McCain. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And I appreciate Senator Fischer bringing up the Weinberger 
Doctrine and, General Schwartz, your comment about the 
authorization. I think there are many reasons why an 
authorization is really important. One is just the legal 
requirements of Article I and Article II. The second is the 
sign of resolve that you show to adversaries, allies, and 
especially your troops. But the third is sort of the one that 
the Weinberger Doctrine gets at, which is it helps you clash 
out at the beginning what is the mission and goal. So 
traditionally the President would present an authorization, but 
then Congress usually does not just accept it verbatim. 
President Bush presented an authorization right after the 
attack on 9/11. Congress rejected the originally presented 
version and batted it around and came up with something 
different.
    The war against ISIL is one that we started on August 8th, 
2014--the President to protect Yazidis on Mount Sinjar and to 
protect the American consulate in Irbil. But within a couple of 
weeks, it was, okay, now we have to go on offense, but we did 
not have the discussion. We did not have the administration's 
presentation of the rationale and then the withering cross 
examination that that deserves. I fault the President for not 
sending an authorization to Congress for, I mean, essentially 6 
months after the beginning of the war, and now it has been 10 
months since the President sent an authorization. We still 
really have not had the discussion that you ought to have at 
the front end if you are going to ask people to risk their 
lives. So I think the Weinberger Doctrine is a good way to look 
at it.
    A couple questions just to clarify. You have all offered 
some interesting ideas. So, Admiral Stavridis, the cyber force. 
Just walk through, if you are looking 15 years ahead, how does 
that look. There is a force. There is a command. Is there a 
cyber academy? Most of us have just done our service academy 
nominations. Is there a cyber academy? Talk to us about what 
that would look like.
    Admiral Stavridis. I can. I think it is small. It is 
probably numbered in thousands of members, so quite small, less 
than 10,000 probably.
    I think what you have today is each of the service 
academies is building inside itself a small cyber academy, and 
this is kind of the inefficiency of it that I think we need to 
overcome.
    So, yes, I think there would be an educational pipeline. I 
think there would be a career path. I think you would have to 
get away from some of the, if you will, traditional go to boot 
camp, shave your head, crawl your way up a hierarchical 
organization. I am not sure that is going to attract the kind 
of people we need in a cyber force. So it probably has somewhat 
different paid benefits back to Senator Manchin's question a 
moment ago about are we paying the right people the right 
amount. So this may be a highly paid cadre. I think probably 
the closest analog to what we have, quite obviously, is special 
forces, and that is roughly what it would look like.
    I do believe it is time we get after this because I think 
our vulnerabilities are significant in this area.
    Senator Kaine. A second question to another idea you had. I 
thought it was intriguing, the idea of an ambassadorial level 
sort of civilian deputy within the COCOMs. And I gather there 
is sort of an unstated assumption that is kind of about the 
nature of the American military mission now that so much of it 
is diplomacy, you know, the nations that want us to send the 
special purpose MAGTFs throughout Africa to train their 
militaries. I mean, so much of it is kind of on the border 
between diplomacy and military or working out with the Japanese 
the Okinawan situation. That is diplomatic as much as it is 
military. Is that sort of your thinking behind the 
recommendation?
    Admiral Stavridis. It is. The structure, as it was in 
effect when I was at Southern Command and while I was at U.S. 
European Command, I had a military deputy, and I think you need 
to continue to have a military deputy for the conduct----
    Senator Kaine. Operations.
    Admiral Stavridis.--of operations.
    But we also had, instead of a POLAD, a political advisor 
from the State Department--we had a senior ambassador who was 
our civilian deputy, and he or she was capable of doing that 
kind of engagement, diplomatic work, working with host nations, 
helped resolve innumerable individual challenges in, if you 
will, the smart power side of the equation. It is low cost, and 
it also is a strong signal to the interagency about how we want 
to work together to address problems that I think is salutary.
    Senator Kaine. It sounds like a Fletcher School dean idea.
    And then, Dr. Lamb, one last question for you. The idea 
that you advocate in your opening testimony about having some 
primary responsibility for irregular war, if it is small or if 
it is large, rather than everybody feeling like the irregular 
wars are sort of a lesser responsibility, which means we are 
not really preparing for regular wars. Talk a little bit about 
that. Elaborate on that if you would.
    Dr. Lamb. Yes. I mean, I think that we have a parallel with 
regard to special operations forces in general. All the 
services, before we combined them under SOCOM [Southern 
Command], had special operations forces. They knew what they 
wanted to use them for, et cetera. But they were not a priority 
for the services. So Congress in its wisdom--and I think 
rightly so--created USSOCOM, and we now have world-class 
special operations forces particularly for the high value 
target mission. So the direct action, go there, go to a site, 
get what you need done, and come back. We have unparalleled 
capabilities. And those have only improved over the last 10 or 
15 years.
    But when it comes to working by, with, or through host 
nation forces, we are not quite as sharp. And there is a number 
of complex reasons for that which have been discussed by many 
individuals. But I think the committee needs to take that issue 
up with SOCOM. SOCOM leadership has repeatedly told Congress 
that they think the indirect mission is in fact more important 
and they intend to improve their indirect capabilities. But 
whether or not that is happening I think is a matter of great 
import.
    With regard to the Marine Corps, not every problem, 
unfortunately, not every low end of the conflict spectrum 
problem could be handled with a small special operations team. 
So the question is who in the Department of Defense, amongst 
all our forces, is really responsible for being prepared for 
that mission. Time and time again, we go on these missions, 
whether it is Panama, Somalia, Bosnia. We go on these missions 
not really prepared for them, kind of learning on the job, 
seeing what the situation demands, not having the equipment, as 
Secretary Gates found, not only not having the equipment, but 
not being able to generate it quickly in response even to 
urgent requests from forces in the field.
    I think we can do better than that. The Marine Corps, from 
my point of view, would work well in that regard for a number 
of reasons. It has a history of greater involvement in these. 
It is already kind of a joint force with amphibious, air, land 
capabilities that are well integrated. So there is a lot of 
advantages there.
    I think we have come to a point where we cannot afford all 
the duplication we have without some clarification of roles in 
the Department. So this is something that made sense to me.
    Senator Kaine. I thank all of you.
    And thank you, Mr. Chairman.
    Chairman McCain. Senator Ayotte?
    Senator Ayotte. Thank you, Chairman.
    I want to thank all of you for being here today.
    Admiral Stavridis, I wanted to ask you about your prior 
position as Commander of SOUTHCOM. And we had testimony this 
spring from General John Kelly, the Commander of SOUTHCOM, 
about how the networks are working over our southern border, 
the sophisticated smuggling networks that I can assure you now, 
unfortunately, are being used to devastate my State with how 
heroin is coming into my State, but also the issue that he 
raised as well was that he believed that adherents to ISIS have 
called for infiltration of our southern border.
    So I wanted to ask you about your thoughts on that in terms 
of the use of those networks not only on things like drugs, but 
also as we look at this terrorism challenge. Is this something 
we should be worried about?
    Admiral Stavridis. It absolutely is something we should be 
worried about, Senator. And I have called this before 
convergence, and it is the convergence of these drug routes, 
which are extremely efficient, with the possibility of using 
them to move terrorists or, at the really dark end of the 
spectrum, weapons of mass destruction, along with the 
narcotics. So when those drug routes and those higher-level 
threats converge--convergence--I think we are at great risk.
    What we should do about it is exactly what we are talking 
about here is think holistically about how you create a network 
to combat a network. This is a very sophisticated, private-
public, if you will, collaboration with international abilities 
ranging from moving submarines with 10 tons of cocaine to 
aircraft, et cetera, et cetera. So you need to bring the 
interagency to bear. You need to bring special operations to 
bear. And I think this also argues for merging NORTHCOM and 
SOUTHCOM because it creates one sphere through which these 
routes are coming at us. So there is a quick basket of ideas.
    Senator Ayotte. I appreciate it. I do not know if anyone 
else wants to comment on that. Thank you.
    I also wanted to, not to pick on you today, Admiral, but 
given your prior position as certainly the Commander of NATO, 
what we have seen recently with Iran--on October 10th, Iran 
conducted a ballistic missile test, a medium-range missile, and 
then also recently we have learned that they have tested a 
missile on November 21st. And as I look at these, first of all, 
a clear violation of U.N. resolutions. Also from what we 
understand, the reports suggest that the missile tested last 
month has a range of approximately 1,200 miles. So that would 
give Iran a capability, of course, of hitting eastern Europe 
and places that we are concerned about in the NATO context.
    So I have been asking why are we not responding to this, 
and what do you think our response should be? Should there be 
some response? It strikes me as a very important issue because 
it is already, in light of the JCPOA [Joint Comprehensive Plan 
of Action]--they are violating existing U.N. resolutions. And 
it seems to me if there is not some response from us, that they 
are going to continue. Not only this does not bode well for the 
JCPOA, but also to continue to develop ICBM [Intercontinental 
Ballistic Missile] capability, as you know, that could go even 
further to hit the United States.
    Admiral Stavridis. As I have said often, Senator, we ought 
to be concerned about Iran's nuclear program, but it is a much 
bigger problem than that. Iran views itself as an imperial 
power dating back two and a half millennia. They currently are 
in control of five capitals in this region. The JCPOA I think 
is going to shower resources upon them. And so they are a 
highly dangerous opponent and will be going forward.
    So what should we do?
    First, we should hold Iran to the commitments they have 
made in the JCPOA, and if that means that agreement is broken 
and we, therefore, return to a sanctions regime, we need to 
face that.
    Secondly, we need to use all of our clandestine, our 
intelligence capability to truly understand what is going on in 
Iran.
    Thirdly, we need to stand with our Sunni allies in the 
region and, of course, with Israel, who are going to be the 
bulwark against this kind of expansion.
    Fourthly, in Europe, as you well know, Senator--I took you 
around there--we looked at the missile defense system. We 
should continue to move in that direction. That is kind of a 
beginning, but I think Iran will continue to be a geopolitical 
threat to the United States.
    Senator Ayotte. Thank you all.
    Senator Reed [presiding].Thank you, Senator.
    On behalf of Senator McCain, Senator Shaheen.
    Senator Shaheen. Thank you.
    Thank you all very much both for your service and for being 
here today.
    Dr. Lamb, you talk about flattening the structure of the 
military to set up special teams that have a commitment to 
mission as opposed to what often interagency groups bring to 
task. It seems to me that I really like that idea. I think that 
one of the things--if we look at the private sector, one of the 
things they figured out is that the top-down approach, a 
hierarchical approach, is not as good for decision-making for 
what they are trying to accomplish as a team approach.
    But what are the challenges--and I guess maybe I ought to 
ask both General Schwartz and Admiral Stavridis what you think 
the challenges are of trying to move from what has been such a 
traditional hierarchical structure to one that allows that team 
approach to really address the challenges that we are facing? 
And, General Schwartz, do you want to start?
    General Schwartz. Sure. You know, I do not know, ma?am, if 
the committee has had Stan McChrystal before you, but here is 
an example, maybe the best recent example, of how the team 
approach produces extraordinary results with his organization. 
And he has written two books and what have you. But the bottom 
line is that Chris Lamb's model does work. There is evidence of 
that. And there is a new generation of military leadership that 
gets it I think, and we should support that, encourage it, and 
through your oversight, mandate it.
    Senator Shaheen. Admiral Stavridis?
    Admiral Stavridis. A core question going forward. And what 
mitigates against it, what makes it difficult, Senator--and you 
know this--is the built-in structure of the military. This is 
an organization where a million people get up in the morning 
and put on the same outfit. I mean, this is why we call it 
``uniforms.'' And you have got to start cracking that 
mentality. We will--I think General Schwartz is spot-on--
because there is a generational shift.
    The question here is this is not an on and off switch 
between a highly chaotic, Silicon Valley-like entity or a 
Prussian-style military. It is a rheostat. We need to dial that 
rheostat more toward team approaches, interagency, 
international cooperation, strategic communication, all of 
those smart power things without losing our ability to deliver 
lethal combat power. I think we can do that. We need to think 
of it as a rheostat that is turning in the direction you 
identified.
    Senator Shaheen. And, Dr. Lamb, you talked about the Coast 
Guard having a different model. One of the things I remember 
after the BP oil spill, when they were talking about the 
response to rescuing people--no. I am sorry. Not the oil spill. 
Hurricane Katrina--was that the Coast Guard was very effective 
in responding I think both there and on the BP oil spill 
because they were able to make decisions on the spot without 
having to check with anybody.
    So what is different about the Coast Guard model, and how 
do you transfer what is effective about that? Or should we be 
looking at transferring what is effective about that to address 
some of the other challenges of building that teamwork 
capacity?
    Dr. Lamb. Well, when I was involved in the project, 
national security reform, we spent some time looking at the 
Coast Guard model. And the Coast Guard I think would say--and 
Admiral Stavridis could speak to this, I think, more directly. 
But I think they would say their leadership model and their 
training and education model is different than some of the 
other services. Because of their very nature, they are used to 
thinking about problems in a cross-functional way. They both 
serve the Department of Defense in war and law enforcement in 
peacetime. And so they have some natural advantages in that 
respect.
    Senator Shaheen. So can you explain? When you say their 
leadership model is different, their training is different, 
what is different that gives them that different ability to 
focus? Admiral Stavridis?
    Admiral Stavridis. They begin their lives at the Coast 
Guard Academy with an appreciation of the fact that they are 
but one entity within the Department of Homeland Security, 
which has 19 different entities within it. They know they 
straddle that border between Title 10 combat operations, in 
which they participated heroically many, many times, as well as 
law enforcement, as well as rescue at sea, as well as 
environmental. So their mission, their ethos, their mentality 
is simply one of cooperation, working together. It is hard to 
find a better integrated organization than the Coast Guard. I 
think we could learn a lot from that.
    General Schwartz. And they have much greater experience 
with State and local leadership than typically do the active 
duty forces.
    Senator Shaheen. Thank you all very much.
    Senator Reed. Thank you.
    On behalf of Chairman McCain, Senator Sullivan, please.
    Senator Sullivan. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being here today and your 
years of service, decades of service to our country.
    I wanted to focus a little bit, Admiral, on your 
recommendation perhaps with regard to NORTHCOM and SOUTHCOM 
merging with a bit of a focus on the Arctic. General Schwartz, 
I know that you have spent a lot of time in Alaska and so have 
a sense of that. We have had a lot of discussions here. Senator 
King and I and the chairman and a lot of others are interested 
very much in what is going on in the Arctic. Actually in this 
NDAA, there is a requirement for the Secretary of Defense to 
put together an Arctic operations plan for the first time, 
which we think is progress.
    But just given your background--actually any of the 
panelists. You know, one of the many challenges that we have up 
there is that when you look at the Arctic, it is the classic 
scenes of different combatant commands where its forces are 
OPCOM [Coast Guard Operations Command] to PACOM [Pacific 
Command]. Its advocate is NORTHCOM, and its threat is primarily 
in EUCOM.
    So you, I am sure, all noticed the very massive Russian 
buildup. Actually just yesterday there was another article 
about a new missile defense system that they are putting in the 
Arctic, four new combat brigades, 11 new airfields, on and on 
and on, huge exercises. And we are looking at actually getting 
rid of the only airborne BCT in the entire Asia-Pacific and in 
the Arctic. And as you know, General Schwartz, that takes a lot 
of training to have your forces up there well trained to be 
able to operate in 30 below zero.
    So I would just really appreciate your views on the Arctic, 
but also how that NORTHCOM/SOUTHCOM merger idea would either 
enhance or merger idea would either enhance or diminish--we do 
not think it should be much more diminished. We think there 
should be more attention on the Arctic given all that is going 
on up there right now. Any panelist, I would welcome your 
thoughts on it.
    General Schwartz. I think it is important that the Arctic 
be assigned as a mission to one of the combatant commands. That 
has yet to happen. It should transpire. That is point one.
    Point two is a more pedestrian concern, but we only have 
one operating icebreaker, Senator Sullivan. This is unthinkable 
for the United States of America. And clearly, that Coast Guard 
platform--we need more of that, and we need the other kinds of 
wherewithal that allow us to assert our sovereignty in the 
Arctic.
    Senator Sullivan. We have one and the Russians have 40 I 
believe.
    General Schwartz. Understood, sir.
    Admiral Stavridis. You are absolutely correct. Russia has 
38 plus two icebreakers. The Chinese, who are not an Arctic 
power, to say the least, have 16 icebreakers, et cetera. The 
Danes, a nation of 5 million, have eight icebreakers. So this 
is actually beyond a pedestrian point. It is a very good one.
    I agree with assigning it to U.S. Northern Command in its 
entirety. I think that it would not be diminished by the merger 
between NORTHCOM and SOUTHCOM. When you look at the level of 
activity to the south and what NORTHCOM is doing, I think that 
could easily be folded into a unified command responsibility, 
and I think it would be valuable because it would further 
solidify our integration with Canada, with whom we ought to be 
partnering in a very significant way, as you know better than 
anybody, in the north.
    Lastly, we should be working with NATO [North Atlantic 
Treaty Organization] to ensure that NATO perceives this is a 
NATO frontier. This is a NATO border. Canada and the United 
States are NATO nations. We need to think of that border as 
importantly as we do as the borders of the Alliance in eastern 
Europe and to the south on the Mediterranean.
    Senator Sullivan. General Schwartz, could you talk to just 
the strategic location of those forces up there? Because, you 
know, Admiral, when you talk about having it completely with 
regard to unified under NORTHCOM, do you think that the 
operational forces should also be under NORTHCOM, given that 
they are very oriented towards the Asia-Pacific? And as General 
Schwartz--and I know you know, sir, the strategic location of 
Alaska is such that those forces, those air forces, those Army 
forces, can really be anywhere in the northern hemisphere 
within 7-8 hours whether it is Korea or the Baltics. Would you 
mind just talking on that for a bit, sir?
    General Schwartz. Quickly, if the constraint of assigned 
forces to the domestic four-star can be overcome, that makes 
sense. To assign those assets in Alaska that have the 
opportunity both to reinforce America's claims in the Arctic, 
as well as be deployable for other missions that might be 
assigned is certainly the right approach.
    Admiral Stavridis. I would only add we talk a lot about the 
unified command plan, which kind of divides the world among the 
combatant commanders. The other important document, Senator, is 
called the ``Forces For'' document, which actually apportions 
and assigns those forces. It is renegotiated typically every 
two years. I think as General Schwartz indicates, that would be 
a very important new way to think about force assignment.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain [presiding]. Senator King?
    Senator King. Thank you, Mr. Chairman.
    A couple of quick points. Amen on the icebreakers. It is 
preposterous that we do not have more significant icebreaker 
capacity, particularly given what is happening in the Arctic in 
terms of the opening up of the ice.
    Secondly, would all of you agree that it would be 
advantageous to the U.S. to accede to the Law of the Sea 
Treaty?
    Admiral Stavridis. Because I am an Admiral, I get to go 
first.
    Senator King. Yes, sir.
    Admiral Stavridis. Yes.
    Senator King. Thank you.
    General, do you agree?
    General Schwartz. And airmen agree with that.
    Senator King. Thank you.
    Dr. Lamb?
    Dr. Lamb. Agnostic, sir.
    Senator King. Agnostic on the treaty? All right. Two to 
one. We will take those odds.
    Chairman McCain. Could I ask why agnostic?
    Dr. Lamb. I really have not studied it at length, but I am 
concerned about our willingness to protect freedom of 
navigation around the world and the way other nations are 
interpreting their littoral areas and their control over them. 
I am not quite sure of the impact of the Law of the Sea Treaty 
on those kinds of issues.
    Senator King. My concern is that other nations are going 
through that process, making claims, and we are standing on the 
sidelines. Your gestures will not show up in the record. Could 
you----
    Admiral Stavridis. I agree with your assessment. We are 
much better inside that treaty than outside it in terms of 
protecting our rights. We could have a long hearing on the Law 
of the Sea, and I am sure such has been done. But call me back 
up on that one anytime.
    Senator King. Thank you.
    I want to associate myself with the comments of Senator 
Ayotte on this Iran ballistic missile test. It is hard to 
interpret exactly what they are doing. There is some thinking 
that maybe this is the struggle of the hardliners and they are 
trying to torpedo the agreement. On the other hand, it seems to 
me it would be very dangerous for us to establish the precedent 
of blinking at violations. I am a great believer that 
implementation is as important as vision. I voted for the JCPOA 
but it was based upon an understanding and expectation that it 
would be scrupulously enforced. And I think this could be 
interpreted as an early test of our resolve. And, General, I 
take it you agree.
    General Schwartz. I certainly do. And if it is a violation 
of U.N. resolutions, we should call that out without 
hesitation.
    Senator King. Thank you.
    Admiral Stavridis. I agree with General Schwartz. I agree 
with your comment as well.
    I have been hopeful of this agreement, but I am 
increasingly skeptical that it will be the right step for U.S. 
national security. This certainly gives weight to the negative 
side of that equation.
    Senator King. Thank you.
    Dr. Lamb, in your prepared remarks, you talked about how we 
need to be thinking about unconventional warfare and suggested 
several areas, one that I want to emphasize. You talk about 
persuasive communication. In my view, there are two fronts to 
the war with ISIS [Islamic State of Iraq and the Levant]. One 
is military. The other is ideas. And we are badly losing the 
war of ideas. And it strikes me that that is a huge gap in our 
national strategy. I know we are doing some things, but my 
sense is it does not have the priority that it should. Would 
you agree with that?
    Dr. Lamb. Yes, I absolutely would. I think there are two 
issues here, one substantive and one organizational. 
Organizationally we are not well organized to treat the issues 
of communications. We get public affairs, public diplomacy, and 
then what used to be called psychological operations.
    Senator King. And USIA was abolished 15 years ago.
    Dr. Lamb. Yes, yes. We do not have a dedicated organization 
to deal with this anymore, and we are confused about the 
difference between these different--Americans are very 
sensitive about government control or use of information. And 
we are losing this game. I would actually concur.
    On the substantive front, we are having some real political 
problems with deciding the best way to deal with the issue, as 
General Dempsey once said, with the fact that some terrorists 
happen to also be Muslim and Islamic. And we want to emphasize 
that the Islamic religion is peaceful and tolerant and so on 
and so forth, but we do have this strain within that religion 
that sees the world differently. And our ability to deal with 
that in a forthright way has really been handicapped.
    And actually I am surprised by the number of senior leaders 
who have said in their memoirs from their tours of duty during 
the past 15 years that this is an Achilles heel for us and that 
we still have not effectively identified the enemy we are up 
against and how best to deal with that, how to turn that issue 
back into something that the Islamic world debates itself about 
what it is going to do about this virulent strain within it.
    So I think substantively and organizationally we are really 
on our heels in this regard. I could not agree more.
    Senator King. And ultimately that is where this battle will 
be won or lost in my view because there are now--pick a 
number--100,000, 200,000 jihadists. There are 1.6 billion 
Muslims. That is the battlefield. And it can only be won within 
the Muslim community, but we have to lead it, it seems to me, 
or we at least need to work with the worldwide non-jihadist 
Muslim community.
    General?
    General Schwartz. Senator, I just would close by saying we 
need to give voice to those who have escaped ISIL-occupied 
areas.
    Senator King. It seems to me a natural.
    General Schwartz. Yes.
    Admiral Stavridis. Just one last thought, if I could. It is 
a battlefield, but it is also a marketplace. And we have to 
compete. We have to recognize that. That is a very important 
aspect of how we communicate. We are pretty good at dominating 
markets. We should bring some of those skills to bear.
    Senator King. It is ironic in the extreme that we are the 
people that invented Facebook and Twitter and all of those 
things, and we are losing on that front.
    Well, thank you very much, gentlemen. I have a lot of other 
questions about the organization, but we will get to those 
later. Thank you.
    Chairman McCain. If you would like to ask an additional 
question----
    Senator King. One additional question on--and maybe this is 
for the record. We are talking about combining several of the 
combatant commands, NORTHCOM and SOUTHCOM, AFRICOM and Europe. 
Are there any savings to be had? And if so, we would like to 
quantify them because in fiscal year 2017 we are going to face 
about a $15 billion shortfall from where we would like to be. 
And that is real money, and we are going to have to find some 
places where it can be saved in staff, personnel, noncombatant 
kind of areas. So perhaps you have an immediate response or for 
the record.
    General Schwartz. In the business world, we call those 
synergies. And I cannot offer a number, but certainly there are 
those in the Department who could answer that question for you 
and I would recommend you press for that.
    Admiral Stavridis. Yes. There are savings. And I would 
recommend not only pressing the Department but getting somebody 
on the outside to take a good look at that.
    Senator King. Thank you very much. I appreciate your 
testimony.
    Chairman McCain. I appreciate the comments about the hearts 
and minds, but first you have got to kill them. And as long as 
the perception is out there that they are winning, then they 
will also win in other areas as well. I believe that one of the 
reasons why these young men are most attracted is that they 
think they are joining a winning cause, and events such as at 
San Bernardino and Paris are one of the greatest recruitment 
tools they have. And until we beat them on the battlefield, I 
think that our messaging efforts will be severely hindered, but 
I also agree that it is just going to be a long fight on using 
the most advanced technologies.
    And I would also point out that we still have a big problem 
with the ability now of ISIS to be contacted and direct a young 
man or young woman to a secure site. That is just not right. 
That is not right. And I see heads nodding. As Senator King 
mentioned, that is not recorded.
    Senator King. I agree with the chairman on both fronts. 
Thank you.
    Chairman McCain. Admiral?
    Admiral Stavridis. I agree completely. And I think that 
this also gets into the cyber piece of this. There are ways 
that we can track, control, eradicate in the cyber world.
    I also particularly agree the leading edge of this has to 
be hard power. In the long game, it is a mix of hard power, 
smart power. But at the moment, dealing with the forces that 
are arrayed against us from the Islamic State, we have to go 
hard now.
    Chairman McCain. Doctor, did you have any comment?
    Dr. Lamb. For myself, I think this is just a good example 
of what I was referring to on the indirect approach in special 
operations, the military information support forces in SOCOM. 
If you look at how they are raised, trained, and equipped, it 
is not to the same levels of proficiency that the other aspects 
of SOCOM are. So I think there is room for improvement there.
    Chairman McCain. Well, I thank you.
    And the Doctor is a graduate of the institution in which 
you are presently employed when it had the correct name. I want 
to thank you for your continued good work.
    And I thank the Admiral and General for your many years of 
service.
    This will probably be the conclusion of a series of 
hearings that we are having as we try to address this whole 
issue of reform, ability to get into the challenge, to meet the 
challenges of the 21st century. I believe that Goldwater-
Nichols could never have come from within the Pentagon. I think 
everybody agrees with that. And we intend, on a bipartisan 
basis, to work with the Pentagon and Secretary Carter as 
closely as we possibly can, but I think it is pretty well known 
that we have to lead. And it is not to the exclusion of the 
Pentagon, but it certainly is a responsibility that I think 
that we have. And I am proud of the modest measures that we 
have taken in this year, but I think next year is really where 
we can really make a significant impact. And the series of 
hearings that we are now concluding with I think gives us an 
excellent basis for the kinds of reforms that need to be made.
    It just is disappointing to our constituents when I go back 
to Arizona and somebody asks me about a $2 billion cost overrun 
of one weapon system. It is hard to defend, hard to justify. 
And then when we see the combat capabilities going down in 
organizations and yet the staffs and support going up and we 
are still unable to conduct an audit successfully of the 
Department of Defense and no one can tell this committee how 
many contract personnel are employed, there is a pretty large 
task ahead of us. But if we pursue the principles that you have 
recommended to us today, some of those other aspects of this 
challenge will follow.
    So you have been very helpful.
    And, Admiral, I asked the panel yesterday if you all would 
prepare notes of condolences to be delivered to Senator Reed on 
Saturday afternoon, it would be much appreciated.
    [Laughter.]
    Admiral Stavridis. Con gusto.
    Senator Reed. Go Army.
    [Laughter.]
    Admiral Stavridis. Go Navy.
    Chairman McCain. We are adjourned.
    [Whereupon, at 11:12 a.m., the hearing was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
